U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                                  Review of the Office of
                                International Affairs' Role
                                   in the International
                                 Extradition of Fugitives

                                      Report Number I-2002-008




                                              March 2002


U.S. Department of Justice                                       i
Office of the Inspector General
Evaluation and Inspections Division
MEMORANDUM FOR MICHAEL CHERTOFF
               ASSISTANT ATTORNEY GENERAL
               CRIMINAL DIVISION


FROM:                             GLENN A. FINE (original signed)
                                  INSPECTOR GENERAL

SUBJECT:                         Review of the Office of International Affairs’ Role in
                                 the International Extradition of Fugitives, I-2002-
                                008


       Attached is the final report on our review of the Office of
International Affairs’ (OIA) Role in the International Extradition of
Fugitives. We assessed whether OIA managed the extradition process
effectively and whether OIA appropriately carried out its extradition
responsibilities.

       We found that OIA does not actively manage its extradition
caseload in a manner that ensures that all necessary actions on
extradition cases are completed. Our review of 58 cases indicated that
OIA could have taken additional action in nearly 60 percent of the cases.
Under its current practices, OIA has not developed internal policies,
procedures, or standards for processing extradition cases that delineate
staff responsibilities, time frames, or priorities to guide employees or
communicate management expectations.

       In our review of extradition case files, we found the majority were
either disorganized or missing key documents and information. From
the conditions of the case files, the history and status of the extradition
requests could not be readily determined. OIA has not established and
implemented standards for maintaining the extradition case files.

       OIA’s centralized automated case tracking system, the Extradition
Tracking System, is not used office-wide as a case tracking system and
OIA staff do not find the system to be reliable or user-friendly. While OIA
staff have devised their own methods for tracking cases, we found these
methods are inadequate for the volume of extradition cases that must be
tracked and for the type of data needed for management oversight.

      To conform to the Government Performance and Results Act of
1993, OIA established performance measures for its treaty negotiation
responsibility. However, OIA has not established performance measures

U.S. Department of Justice                                                                ii
Office of the Inspector General
Evaluation and Inspections Division
for its other major responsibilities, such as processing extradition
requests and evidence requests under the treaties.

       We sent copies of the draft report to your office on December 10,
2001, and requested written comments on the findings and
recommendations. We have attached your comments as an appendix to
the final report. We have incorporated the comments where appropriate.
On the basis of your written comments, we consider Recommendations
1, 2, 3, 4, and 5 open and resolved. To close the recommendations,
please provide the documentation listed in Appendix IV of the report
within 60 days.

      We appreciate the courtesies extended to our staff. We hope the
information contained in the attached report will be useful in your efforts
to improve the extradition process.

Attachment

cc: Julie Wellman
    Liaison
    Criminal Division

       Vickie L. Sloan
       Director
       Departmental Audit Liaison Office




U.S. Department of Justice                                               iii
Office of the Inspector General
Evaluation and Inspections Division
                                          TABLE OF CONTENTS


INTRODUCTION........................................................................................................... 1

         Background .......................................................................................................... 1

         The Extradition Process .................................................................................... 11

         Scope ................................................................................................................. 15


RESULTS OF THE INSPECTION ............................................................................ 17

          Managing Extradition Cases............................................................................ 17

          Limits to OIA’s Role .............................................................................25

          Standards for Extradition Case Files .................................................27

          Tracking Extradition Case Actions................................................................. 30

          Performance Measures..................................................................................... 32


CONCLUSION AND RECOMMENDATIONS ........................................................ 33


APPENDIX I: PROCESS FOR INTERNATIONAL
            EXTRADITION REQUESTS........................................................... 35


APPENDIX II: TABLE OF RESPONSIBILITIES – OTHER
             U.S. AGENCIES IN THE EXTRADITION PROCESS ............... 39

APPENDIX III: CRIMINAL DIVISION MANAGEMENT’S RESPONSE ......... 40

APPENDIX IV: OIG’S ANALYSIS OF MANAGEMENT’S RESPONSE ........... 54




U.S. Department of Justice                                                                                                        iv
Office of the Inspector General
Evaluation and Inspections Division
                                      EXECUTIVE DIGEST


        International extradition is the formal process by which a fugitive found in one
country is surrendered to another country for trial or punishment. The process is
regulated by treaty and conducted between the U.S. government and a foreign
government. As of February 2001, the United States had extradition treaties with 109
countries, with some treaties dating back over 100 years.

         The Criminal Division's Office of International Affairs (OIA), established in
1979, is the central point of contact within the Department of Justice (Department) for
U.S. prosecutors and foreign governments seeking to extradite fugitives. OIA's role is to
facilitate an extradition by providing advice and assistance to U.S. and foreign
prosecutors regarding legal, procedural, and other aspects of the extradition process and
to process extradition requests for fugitives wanted in the United States and foreign
countries. Even though OIA attorneys do not direct the investigation and prosecution
related to an extradition, OIA has significant responsibility in the extradition process that
affects the overall progression of, and law enforcement decisions relating to, the
extradition. OIA is responsible for managing the information it receives pertaining to
specific extradition requests, intelligence regarding a fugitive’s activities and location,
law enforcement initiatives occurring in a country, and diplomatic communications.

        Each year since 1990, OIA has opened between 670 to 950 cases for the
extradition of fugitives based on requests from U.S. prosecutors and foreign
governments. During the same time period, OIA closed between 380 to 960 cases per
year. OIA's rate of case closure has not kept pace with the number of new cases,
resulting in a pending caseload that has increased over 100 percent since 1990. As of
November 2000, OIA had 3,636 extradition cases pending -- approximately 1,100 cases
where fugitives wanted by foreign governments were believed to be in the United States
and approximately 2,500 cases where fugitives wanted by the United States were
believed to be in foreign countries. Included in these cases are requests that were
presented to the appropriate governments up to 27 years ago.

        The Evaluation and Inspections Division, Office of the Inspector General (OIG),
assessed whether OIA managed the extradition process effectively and whether OIA
appropriately carried out its responsibilities for the international extradition of fugitives.
OIA does not have written policies and procedures that describe the office’s
responsibilities in processing extradition requests within OIA. Consequently, we
examined case files, interviewed OIA managers and staff, other Department officials, and
reviewed statistical information contained in OIA's case tracking system in an effort to
understand OIA’s work processes. We selected a sample of 70 extradition case files from
the total pending cases and




U.S. Department of Justice                                                                  v
Office of the Inspector General
Evaluation and Inspections Division
cases closed during fiscal year 2000. Of the 70 cases, 39 cases were closed and 31 were
open. Of the 70 cases, OIA did not produce 12 case files before we concluded our
review.1

        Our review of the 58 case files disclosed that OIA’s effectiveness in processing
and managing an extradition request was inconsistent, depending upon its stage in the
extradition process and the status of any pending actions. We found that in most of these
cases OIA was effective during the initial review of an extradition request when it
ensured the extradition request met treaty requirements and satisfied other legal and
diplomatic requirements. OIA also provided support during the extradition procedures
once a fugitive was apprehended. For the cases we reviewed, we found that OIA met
extradition deadlines, such as submitting extradition documents after a provisional arrest.
OIA’s attention to an extradition request diminished, however, after it had taken these
actions. With few exceptions, we found that OIA did not review cases to determine
whether follow-up action was needed, to ensure that OIA had taken all action it should on
the cases, or to close cases in a timely manner.

        Although it is reasonable for extradition cases to remain open for many years
because of legal, diplomatic, or law enforcement issues, we found that many cases
remained open due to inattention. We found various reasons for OIA's inattention to
pending cases. According to OIA staff, they did not follow up on cases because of the
steady receipt of new extradition cases that required immediate attention, the large
volume of cases assigned to each attorney made follow-up not feasible, and a view that it
was not OIA's responsibility to initiate follow-up on pending cases. According to OIA
officials, U.S. and foreign investigators, prosecutors, and officials are responsible for
monitoring their extradition cases and for initiating any follow-up action needed to
further the extradition. However, we found that OIA missed opportunities to provide
information that could have advanced the extradition effort.

       For 34 of the 58 extradition cases we reviewed, we found that OIA could
have taken additional action if it had reviewed the cases regularly and followed
up with foreign and U.S. prosecutors. The types of actions that OIA could have
taken included closing cases in a more timely fashion, determining the status of
requests for additional information from USAOs and foreign officials pertaining to
an extradition, and determining the status of case actions and providing the
information to appropriate prosecutors and law enforcement agencies.




         1
           In commenting on a draft of the report, OIA stated that part of the problem in providing
these 12 cases was the National Records Center’s inability to find the case files; or the Center’s
late retrieval of the files; or the OIA’s erroneous entries into the Extradition Case Tracking System
that showed the cases as open, when in fact they were closed and at the National Records
Center.

U.S. Department of Justice                                                                         vi
Office of the Inspector General
Evaluation and Inspections Division
        We also found that OIA’s case files were not complete and not maintained in an
organized manner. To effectively provide advice and assistance in extradition cases, OIA
staff must have access to organized and complete information regarding actions on
extradition cases. Additionally, as a result of attorney turnover and absences from the
office, OIA staff attorneys must often assume responsibility for other attorneys’
extradition cases and quickly familiarize themselves with the case details. Therefore,
case files should contain all case-related information so an attorney unfamiliar with the
case can easily discern its status and history. In 31 of the 58 extradition case files we
reviewed, either documents were not in any discernible order or key documents and
information were missing.

        The Extradition Tracking System (ETS) – OIA’s centralized automated case
tracking system – is designed to track case information and correspondence, identify and
monitor the status of extradition cases, and generate statistics about the extradition
process such as the number of pending extradition cases. Of the 14 staff members we
interviewed, 10 (6 attorneys and 4 paralegals) said that they generally do not use ETS to
determine case status. They said that ETS is unreliable or not user friendly. Many staff
members said they use ETS to determine basic case identifying information, such as the
OIA attorney assigned, but if they want to determine case actions or status, they refer to
the case file. Instead of using ETS to monitor case activities, staff have devised their own
methods for tracking cases. For instance, some country team attorneys and paralegals
track deadlines and cases by handwriting provisional arrest request dates on their desk
calendars, maintaining a mental list of open cases, and attaching notes to case files.
Thus, OIA has not integrated its automated system into its case management
responsibilities.

       We concluded that OIA did not manage individual extradition cases or its
overall caseload as effectively as it could because OIA has not developed
adequate case management procedures. Cases are not prioritized for follow-up
and OIA staff and supervisors do not systematically review pending matters.
Unless prompted by outside entities, OIA does not usually follow up with U.S. or
foreign officials. This failure to fully manage the extradition process and
individual extradition cases occurred primarily because OIA has not established
clear objectives for case management, has not developed procedures for
systematically reviewing cases, has not developed standards for case file
maintenance, and has not incorporated its automated case tracking system in the
case management process. Without these basic management procedures, OIA
cannot ensure that it has taken sufficient actions on each extradition case.

       We made five recommendations to help OIA improve its management of
the extradition process and accomplish its responsibilities for the international
extradition of fugitives: (1) develop extradition case management policies and
procedures that require periodic review of cases by OIA attorneys and their
supervisors to ensure legal sufficiency, timeliness, and completeness of actions;
(2) coordinate with the Department’s law enforcement components to develop


U.S. Department of Justice                                                               vii
Office of the Inspector General
Evaluation and Inspections Division
strategies for law enforcement officials to identify individuals who are the subjects
of extradition requests; (3) develop standards for maintaining complete and
organized extradition case files and accounting for the physical location of each
file; (4) incorporate into the extradition process an automated case tracking
system that provides reliable and complete data; and (5) develop performance
measures for processing extradition requests and for monitoring OIA’s progress
in meeting its goals.




U.S. Department of Justice                                                       viii
Office of the Inspector General
Evaluation and Inspections Division
                                      INTRODUCTION


        International extradition is the formal process by which a fugitive found in one
country is surrendered to another country for trial or punishment. The process is
regulated by treaty and conducted between the U.S. government and a foreign
government. As of February 2001, the United States had extradition treaties with 109
countries.

        The Criminal Division's Office of International Affairs (OIA), established in
1979, is the central point of contact within the Department of Justice (Department) for
U.S. prosecutors and foreign governments seeking to extradite fugitives. OIA provides
advice to U.S. and foreign law enforcement organizations and processes extradition
requests for fugitives wanted in the United States and foreign countries.

        Each year since 1990, OIA has opened between 670 to 950 extradition cases
based on requests from U.S. prosecutors and foreign governments. During the same time
period, OIA closed between 380 to 960 cases per year. OIA's case closure rate has not
kept pace with the number of new cases, resulting in a pending caseload2 that has
increased over 100 percent since 1990. As of November 2000, OIA had 3,636
extradition cases pending – approximately 1,100 cases where fugitives wanted by foreign
governments were believed to be in the United States and approximately 2,500 cases
where fugitives wanted by the United States were believed to be in foreign countries.

        The Evaluation and Inspections Division, Office of the Inspector General (OIG),
reviewed the extradition process at OIA. The review assessed whether OIA managed the
extradition process effectively and whether OIA carried out its role and responsibilities
for the international extradition of fugitives.

Background

       The extradition of a fugitive from one country to another involves
coordination and cooperation among law enforcement personnel, prosecutors,
and other government officials. OIA’s role is to facilitate the extradition process
and provide advice and assistance on international criminal matters to both U.S.
and foreign law enforcement authorities. OIA supports the Department, U.S.
Attorneys’ offices (USAO), and state and local prosecutors on issues of




         2
          Pending cases are cases that are not closed by the end of calendar year and are
carried forward into the next year.

U.S. Department of Justice                                                                  1
Office of the Inspector General
Evaluation and Inspections Division
international law, including extraditions. It also serves as the United States’
central point of contact for foreign law enforcement authorities on international
criminal matters.3

        For extradition requests, OIA reviews legal documents to ensure they meet the
treaties’ requirements, provides to U.S. and foreign prosecutors advice and assistance that
will increase the likelihood of fugitives’ extraditions, and recommends ways of resolving
problems with extradition cases. When an extradition in a foreign country is not viable,
OIA can advise and assist U.S. prosecutors and law enforcement personnel about
pursuing other options, such as seeking deportation of a fugitive or issuing an Interpol
Red Notice4 to facilitate the fugitive’s apprehension. When a foreign government’s
extradition request does not meet the requirements of the United States, OIA informs the
foreign government of the request’s deficiencies. However, the foreign government, not
OIA, is responsible for determining its next action based on its own government’s
recommendations.

       OIA also negotiates agreements on international criminal matters in
concert with the U.S. Department of State and other government agencies.
OIA’s principal concentration is bilateral extradition and mutual legal assistance
treaties (MLAT),5 but it also negotiates executive and general multilateral law
enforcement agreements. In addition, OIA processes MLAT and non-treaty
evidence requests and provides information and advice on international criminal
matters to the Attorney General and other senior Department officials.6

       To accomplish its responsibilities, OIA has five teams – four country teams
and a “Multilateral Team” – each headed by an Associate Director and staffed
with attorneys, paralegals, and support personnel. The number of attorneys and
paralegals varies by team.




         3
             OIA Mission Statement, January 17, 2001.
         4
          An Interpol Red Notice is an international system that distributes information regarding
individuals wanted by law enforcement agencies. A Red Notice is submitted by a country that
seeks the arrest of a fugitive for whom an arrest warrant has been issued and the fugitive’s
whereabouts are unknown. When a country issues a Red Notice, the country is making a
commitment to extradite the fugitive if arrested.
         5
        MLATs allow one country to directly request evidence through another country’s justice
agency contact, such as OIA in the United States.
         6
          When we interviewed OIA staff as part of our review, they stated that extraditions were
OIA’s “highest priority.” In commenting on a draft report, however, OIA stated that extraditions
were a “high priority,” and emphasized its work handling requests for evidence under MLATs and
providing advice on international criminal matters to Department officials.

U.S. Department of Justice                                                                           2
Office of the Inspector General
Evaluation and Inspections Division
      According to OIA records, about 25 staff attorneys and 11 paralegals are
assigned to four country teams that are responsible for processing requests from
both U.S. prosecutors and foreign governments. The country teams process
cases that fall within the following geographic areas:

         x Team I (United Kingdom/Africa) – responsible for Ireland, Africa, and
            the United Kingdom (UK) and its dependencies, and English-speaking
            Caribbean nations.

              At the time of our review, Team I had 386 open extradition cases, 107
              of which involve the UK.

x Team II (European) – responsible for Europe (except the UK) and the
   Caribbean islands controlled or formerly controlled by European countries
   other than the UK.

              At the time of our review, Team II had 609 open extradition cases.
              Unlike the other country teams, no one country dominates Team II’s
              extradition cases. The top four countries are: Switzerland with 86
              cases, Federal Republic of Germany with 72 cases, the Netherlands
              with 66 cases, and France with 60 cases.

         x Team III (Latin American) – responsible for Mexico, Central and South
            America, and Spanish-speaking Caribbean nations.

              At the time of our review, Team III had 1,693 open extradition cases.
              More than half of these cases (849) involved Mexico.

         x         Team IV (Asia/Canada) – responsible for Asia (which includes
              the Middle East), Canada, Australia, New Zealand, and Pacific islands.

              At the time of our review, Team IV had 942 open extradition cases.
              Slightly less than half of these cases (456) involved Canada.

      The country teams are supported by two OIA sections: the Docketing Unit
and the Fugitive Unit. The Docketing Unit is responsible for recording the
opening of all extradition cases in the automated Extradition Tracking System
(ETS) and preparing the official case file folders that are maintained in the




U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
Docketing Unit’s file room.7 This unit also receives all incoming correspondence
and excerpts information from it into ETS. Original documents are forwarded to
the appropriate country team to be included in the extradition case file folders
maintained by the teams. This unit also is responsible for recording the closing
of all extradition case records in ETS and retiring files to the Federal Records
Center.

At the time of our review, OIA had one attorney assigned to the Fugitive Unit.
                        This unit was responsible for maintaining a registry of U.S.
                        fugitives who, after the United States made an original
                        extradition request to a foreign country, eluded law
                        enforcement authorities. This unit notified the country
                        teams when a U.S. fugitive was located abroad so the
                        appropriate country team could contact the prosecutor to
                        ascertain whether the jurisdiction was still interested in
                        pursuing the extradition. The Criminal Division informed
                        us that the unit was abolished after we completed our field
                        work.

       OIA has a “Multilateral Team” that is responsible for assisting in the
negotiation of multilateral law enforcement treaties.8 The team, consisting of two
attorneys, serves as the Department’s contact for judicial matters involving
international tribunals and international criminal courts. The team provides
assistance regarding law enforcement activities of multilateral organizations and
coordinates activities of Department components engaged in multilateral law
enforcement activities.




         7
           When extradition cases are opened, the Docketing Unit establishes the official case file
folder for each new case. After the Docketing Unit completes the official case folders, the country
teams maintain all documents related to the cases in its own file folders until the cases are
closed. Therefore, the official file folders contain only the documentation that officially opened the
extradition cases. When cases are closed, the country teams send their case files to the
Docketing Unit, which puts all the documents maintained in the country team’s case files into the
official case file folders.
         8
          A multilateral law enforcement treaty is a treaty to which more than two countries are
parties for a law enforcement purpose. For example, a multilateral law enforcement treaty that
addresses international trafficking in stolen vehicles establishes requirements for returning the
vehicles. These treaties are negotiated through multilateral organizations, such as the Council of
Europe and Organization of American States.

U.S. Department of Justice                                                                          4
Office of the Inspector General
Evaluation and Inspections Division
      Over the past decade, OIA’s total staff has not changed significantly, as
shown in Table 1 below. The average number of attorneys and other
professional staff is 41 and 17, respectively. While the total number of attorneys
has decreased since 1992, the total number of administrative and other
professional staff has increased.

                                         Table 1. OIA Staffing Levels

             End of                                Administrative/Other
                                              9
           Fiscal Year                Attorneys     Professional Staff    Total
              1992                        47               14              61
              1993                        45               12              57
              1994                        42               14              56
              1995                        37               18              55
              1996                        35               20              55
              1997                        40               20              60
              1998                        39               17              56
              1999                        43               17              60
              2000                        40               19              59
          Source: OIA
          Note: Staffing levels do not include clerical staff.




         9
        In addition to the attorneys in its Washington, D.C., office, five OIA
attorneys are stationed overseas in Belgium, France, Italy, Mexico, and UK.
Another OIA attorney is detailed to the U.S. National Central Bureau (USNCB) of
INTERPOL as its General Counsel.

U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
        The numbers of extradition treaties and MLATs have grown significantly
over the last ten years (see Table 2 below). The United States currently has 91
extradition treaties in force with 109 countries. Before 1990, there were four
MLATs in existence. Since 1990, 34 additional MLATs have been established.
Once these treaties take affect, OIA staff has the responsibility of processing the
resulting extradition and legal assistance requests.

                       Table 2. Number of Treaties Entered into Force
                            From 1990 through February 1, 2001

                                      Extradition
              Calendar Year            Treaties     MLATs          Total
                   1990                    0          3             3
                   1991                    4          1             5
                   1992                    1          0             1
                   1993                    2          4             6
                   1994                    1          1             2
                   1995                    1          2             3
                   1996                    2          2             4
                   1997                    4          2             6
                   1998                    1          1             2
                   1999                    9          9             18
                   2000                    7          8             15
                   2001                    1          1             2
             Total 1990-2001              33         34             67
              Source: OIA

        According to data provided by OIA, the yearly number of incoming mutual
legal assistance requests increased threefold from 439 to 1,555 between 1990
and 2000. During the same period, the number of outgoing requests more than
doubled from 286 to 608. Appendix III includes a table prepared by the Criminal
Division of mutual legal assistance requests by year. According to OIA officials,
the expansion of MLATs has contributed to the increase in requests. In
responding to our draft report, OIA officials suggested that the increase in mutual
legal assistance requests has contributed to case management problems in OIA.
The number of requests and methods used by OIA to process the requests were
not reviewed during our assessment of the extradition process. Our interviews
with OIA attorneys disclosed that mutual legal assistance requests were a large
part of their workload. While OIA officials acknowledge that increased mutual
legal assistance and treaty negotiation responsibilities do not excuse OIA’s case
management problems, they assert that these responsibilities increased OIA’s
overall workload and affected OIA’s ability to handle its extradition responsibilities
in a timely manner.


U.S. Department of Justice                                                          6
Office of the Inspector General
Evaluation and Inspections Division
       Although 33 extradition treaties entered into force10 from 1990 through
2001, the number of new extradition cases opened by OIA per year did not
increase, remaining in the 700 - 900 case range. (See Figure 1 on page 8 for the
number of new cases per year.) Thus, OIA's pending workload did not grow as a
result of new treaties.




         10
           Of these extradition treaties, only four were entirely new treaty relationships (Jordan,
the Philippines, South Korea, and Zimbabwe). The remaining treaties updated or entirely
replaced outmoded treaties.

U.S. Department of Justice                                                                            7
Office of the Inspector General
Evaluation and Inspections Division
                                 Figure 1. Extradition Cases Opened
                                     Calendar Years 1990 - 2000



       950




       900




       850




       800




       750




       700




       650




       600




       550




       500
               1990     1991     1992   1993   1994   1995   1996   1997   1998   1999   2000

Total Opened   674       733      821   833    941    913    766    758    843    823    841



Source: OIA




U.S. Department of Justice                                                                      8
Office of the Inspector General
Evaluation and Inspections Division
       According to data provided by OIA, the number of OIA’s pending
extradition cases at the end of each calendar year has been growing, as shown
in Figure 2 on page 10. Although the number of new cases has not increased
steadily since 1990, the number of pending cases has increased rapidly. In
OIA’s incoming extradition caseload,11 the number of cases pending at the end of
2000 is over 2.5 times as large as that pending at the end of 1990 (see Table 3
below). The number of outgoing extradition cases pending at the end of 2000 is
almost twice as large as that pending at the end of 1990 (see Table 4 below).


          Table 3. Opened, Closed, and Pending Incoming Extradition Cases
                            Calendar Years 1990 - 2000

              1990    1991      1992    1993    1994    1995    1996    1997    1998    1999    2000

Opened        137     216       264     237     303     340     275     237     274     200     218
Closed        211     153       167     214     244     176     141     129     266     199     188
Pending       422     485       582     605     664     828     962     1,070   1,078   1,079   1,109
Source: OIA



          Table 4. Opened, Closed, and Pending Outgoing Extradition Cases
                            Calendar Years 1990 - 2000

              1990     1991      1992   1993    1994    1995    1996    1997    1998    1999    2000

Opened         537      517      557    596     638      573     491     521     569     623     623
Closed         465      355      373    498     492      436     270     259     694     459     557
Pending       1,419    1,581    1,765   1,863   2,009   2,146   2,637   2,629   2,504   2,668   2,734
Source: OIA




11
     Extradition requests submitted by foreign governments to the U.S. government for the return of
                              fugitives believed to be in the United States are referred to as
                              incoming extradition requests. When the U.S. government submits
                              extradition requests to foreign governments for the return of fugitives
                              believed to be in the recipient countries, the requests are referred to
                              as outgoing extradition requests.

U.S. Department of Justice                                                                            9
Office of the Inspector General
Evaluation and Inspections Division
                               Figure 2. Total Opened, Closed, and Pending
                                            Extradition Cases
             4,000
                                        Calendar Years 1990 - 2000




             3,500




             3,000




             2,500




             2,000




             1,500




             1,000




               500




                    0
                        1990     1991   1992    1993    1994    1995    1996    1997    1998    1999    2000

         Opened         674      733    821     833     941     913     766     758     843     823     841
         Closed         676      508    540     712     736     612     411     388     960     658     745
         Pending        1,841   2,066   2,347   2,468   2,673   2,974   3,329   3,699   3,582   3,747   3,843
      Source: OIA




U.S. Department of Justice                                                                                      10
Office of the Inspector General
Evaluation and Inspections Division
The Extradition Process

As the U.S. government’s central point of contact in the extradition process,
                     OIA’s role combines both criminal justice responsibilities
                     and international diplomacy. While processing an
                     extradition request, OIA assesses the legal aspects of the
                     specific case and whether the case complies with an
                     extradition treaty. Part of this review involves ensuring
                     that the extradition paperwork is properly prepared, the
                     information regarding the fugitive is complete, the
                     fugitive’s location has been identified, documentation is
                     included establishing probable cause that the fugitive has
                     committed the specified crimes, and other legal
                     requirements have been met.

Although OIA must ensure that each extradition request strictly adheres to treaty,
                     legal, and procedural requirements, OIA staff use
                     discretion to develop a course of action based on the
                     circumstances of each particular case. OIA staff said a
                     typical extradition takes two to four years from request
                     through surrender. Other factors, including the complexity
                     of the case or diplomatic considerations, may result in the
                     extradition case remaining open for extended periods of
                     time.

Even when OIA does everything it should, extraditions may not occur because of
                    factors outside OIA’s control. For example, an extradition
                    cannot occur when a fugitive eludes law enforcement
                    authorities or when foreign governments cannot provide
                    documents needed to meet the United States’ legal
                    standards. In 2000, OIA closed about 630 extradition
                    cases, of which about 350 fugitives or 56 percent were
                    surrendered to the requesting country. The remaining
                    cases were closed without apprehending the fugitive for a
                    variety of reasons including the inability to locate the
                    fugitive or because the requesting entity withdrew the
                    request.

      Based on extradition-related documents and interviews with OIA staff, we
produced two flowcharts, Figures 3 and 4 on pages 12 and 13, which summarize




U.S. Department of Justice                                                      11
Office of the Inspector General
Evaluation and Inspections Division
the major steps in the extradition process for incoming and outgoing extradition
requests.12




         12
          For a more comprehensive description of the extradition processes, see Appendix I.
For a more complete description of the roles of U.S. government entities in the extradition
process, see Appendix II.

U.S. Department of Justice                                                                     12
Office of the Inspector General
Evaluation and Inspections Division
                                      Figure 3. Incoming Extradition Process


                                                Foreign government forwards
                                      extradition request to Department of State (DOS)




                                        Request routed through diplomatic channels to
                                          DOS’s Law Enforcement and Intelligence
                                          office, which forwards the request to OIA


                   OIA reviews request for sufficiency, evaluating the elements that will be judged at
                   an extradition hearing held in a U.S. court:
                   •An extradition treaty is in force between the United States and the requesting foreign
                   government;
                   •Criminal charges are pending in the requesting country and an arrest warrant has
                   been issued;
                   •The crimes charged are encompassed within the extradition treaty;
                   •The fugitive is identified as the person accused of committing the crimes; and
                   •Probable cause exists that the fugitive committed the crimes charged.


                           OIA forwards request to
                                                                               The USAO obtains
                          USAO in jurisdiction where
                                                                              federal arrest warrant
                        fugitive believed to be located



                                                  The USMS arrests the fugitive




                       Extradition hearing                 Court rules on extraditability of fugitive. Upon
                        held in U.S. court                issuance of certification of extraditability, DOS
                    in appropriate jurisdiction              issues a surrender warrant for the fugitive



                                          Foreign law enforcement authorities travel
                                          to the United States and take fugitive into
                                               custody from USMS for return to
                                                      requesting country



          Source: OIA, Criminal Resource Manual, and U.S. Attorneys’ Manual.




U.S. Department of Justice                                                                                    13
Office of the Inspector General
Evaluation and Inspections Division
                         Figure 4. Outgoing Extradition Process

                                 The U.S. federal/state/local prosecutor
                                   forwards extradition request to OIA




        OIA reviews request for sufficiency regarding the following elements:
        •An extradition treaty is in force between the United States and the recipient country;
        •Both countries’ legal systems recognize the fugitive’s crimes as criminal
         (dual criminality) and extraditable;
        •The fugitive is procedurally extraditable, considering elements such as the citizenship
        of the fugitive and types of evidence that are available to the U.S. prosecutor; and
        •The applicable statutes of limitations governing the crimes in both the United
        States and the other country have not expired.




                           Request forwarded via diplomatic channels at the
                          DOS Law Enforcement and Intelligence office, and
                           then to the U.S. embassy in the recipient country




                    Foreign law enforcement                       Extradition hearing
                    authority arrests fugitive                    held in foreign court



                                      Court rules on extraditability of fugitive;
                                        court issues official certification of
                                                   extraditability



                                      The USMS travels to recipient country
                                        and takes fugitive into custody for
                                              return to United States



Source: OIA, Criminal Resource Manual, and U.S. Attorneys’ Manual.




U.S. Department of Justice                                                                         14
Office of the Inspector General
Evaluation and Inspections Division
        OIA's responsibilities vary depending upon whether the extradition is an
"incoming" or "outgoing" extradition request. OIA advises and assists U.S.
prosecutors and, to a lesser extent, foreign governments. In an outgoing
extradition request, OIA has a more substantive role in ensuring the request is
legally sufficient. Oftentimes, OIA provides the U.S. prosecutor with advice prior
to the request being submitted for consideration by a foreign government. OIA is
ultimately responsible for ensuring that all U.S. extradition requests are prepared
properly and will meet the legal and diplomatic requirements of the foreign
government. If the extradition request is rejected by a foreign government, OIA
will continue to advise U.S. prosecutors on alternative courses of actions.
Conversely, in an incoming extradition, OIA’s role is to review the request for
legal sufficiency and notify the foreign government of deficiencies in the
extradition request. OIA provides advice to a foreign government, but the foreign
government will determine the next action to take. In both outgoing and incoming
extraditions, OIA most often is the sole channel for communication and
information once the request is submitted for government consideration.

       When extradition requests are received at OIA, the attorneys evaluate
whether the submitted documents establish the basis for extradition, assess the
probability of extradition based on those documents and their knowledge of U.S.
and foreign legal systems, and, if necessary, consider alternative actions such as
deportation to bring the fugitives to justice. To increase the chances of a
successful outcome in an extradition hearing in a foreign country, an OIA
attorney may advise a prosecutor that a superseding indictment is necessary so
that the crime charged in the indictment corresponds to a crime in the country in
which the fugitive is located.13 In making their legal assessments, OIA attorneys
have discretion in determining which actions are appropriate to process the
cases.

       In addition, OIA attorneys make decisions regarding the timing of actions.
For example, based on their experience with particular countries, OIA attorneys
may decide that pressing the foreign governments at certain times for responses
may have adverse consequences. These decisions may be based on diplomatic
issues unrelated to the extradition request, the relative priority of other pending
extradition and MLAT assistance requests, or prior incidents with the country’s
government.

        Aspects of the extradition process can require OIA attorneys to perform
their duties in a time sensitive manner. For example, OIA is notified when a
fugitive wanted by the United States has been located in a foreign country.
Because some fugitives may flee the country while a formal extradition request is
being finalized, extradition treaties establish a mechanism, called a provisional

         13
          This is known as dual criminality, which holds that for a crime to be extraditable, the
conduct alleged must be criminal under the laws of both the requested and requesting countries.

U.S. Department of Justice                                                                     15
Office of the Inspector General
Evaluation and Inspections Division
arrest, that allows a requesting government to ask a foreign government to
temporarily arrest and detain a fugitive, thereby giving the requesting government
time to prepare full documentation for the formal extradition request. This formal
request must be submitted to the foreign government within the time period
designated by treaty, usually one to three months. If the extradition request is
not submitted within that time period, the fugitive will be released from custody.

OIA attorneys also travel abroad to meet with foreign country representatives to
                       negotiate extraditions, to review the status of cases, and
                       to resolve specific extradition issues.

Scope

        Our inspection examined how OIA manages extradition requests.
Because OIA has not developed written policies and procedures pertaining to its
responsibilities in processing extradition requests within OIA, we examined case
files for various types of extradition requests; interviewed OIA managers, staff,
and other Department officials; and reviewed statistical information contained in
OIA's case tracking system. While we obtained information about other OIA
responsibilities, such as MLAT requests, our analysis did not encompass these
matters. We performed our fieldwork from September 2000 to April 2001.

       We conducted interviews with OIA managers, including the Acting
Director, Deputy Director, and six Associate Directors; six attorneys and five
paralegals assigned to all four country teams; the Federal Bureau of Investigation
(FBI) and the U.S. Marshals Service (USMS) liaisons assigned to OIA14;
personnel in the OIA Docketing Unit; an OIA attorney detailed to the U.S.
National Central Bureau (USNCB) of INTERPOL as its General Counsel; and
three Assistant U.S. Attorneys (AUSA) who were the International/National
Security Coordinators (INSC)15 from three large USAOs – the Southern District of
New York, the Central District of California, and the District of Columbia.

       We collected statistical data on extradition requests from various sources.
The Criminal Division’s Management Information Staff (MIS) provided us with
extradition case data maintained in ETS. OIA management provided us with
extradition workload statistics showing the number of cases closed and opened

         14
            The FBI and USMS each have a representative detailed to OIA who serves as a liaison
with their respective agency. Liaison activities include advising field personnel on how to properly
complete documents in support of extraditions and referring field personnel to an appropriate
country team attorney when questions on extradition procedures arise.
         15
          Since 1992, an AUSA in each USAO has been designated as the International/National
Security Coordinator. The Coordinator provides in-house expertise and guidance on international
matters and shepherds the progress of incoming and outgoing requests for fugitives between the
United States and other countries.

U.S. Department of Justice                                                                       16
Office of the Inspector General
Evaluation and Inspections Division
each year. We examined regulations, policies, documents, and forms that
pertain to extradition, such as the U.S Code, Criminal Resource Manual, and
U.S. Attorneys’ Manual. During our review, we examined the methods by which
extradition cases were handled to identify case management practices among
attorneys on the country teams.

       We selected a sample of 70 extradition case files from the total pending
cases as of November 2000 and cases closed during fiscal year 2000. Of the 70
cases, 39 were closed and 31 were open. Of the 70 cases, OIA did not produce
12 cases, 9 closed and 3 open, before we concluded our review.16 Of the 58
cases reviewed, 30 were closed cases and 28 were open cases. Of the 30
closed cases, 15 were incoming requests and 15 were outgoing requests. Of the
28 open cases, 15 were incoming requests and 13 were outgoing requests. Our
case file sample included extradition cases open for time periods ranging from
one month to 18 years, from all country teams, assigned to selected attorneys,
closed with selected disposition codes, and involving 29 countries including
countries that have significant numbers of extraditions, such as Mexico.

        For each case, we reviewed information in the case file and ETS. We
recorded key dates, determined case actions taken by OIA, and reconciled case
dates and status in the case files with those in ETS. In some instances we
interviewed the attorney assigned to the case to obtain clarification of the case’s
status or activities. In addition, we checked 26 of the 28 incoming cases in our
sample in the National Crime Information Center (NCIC)17 database to determine
whether any of the fugitives had a U.S. criminal history and whether crimes had
been committed after the extradition request had been received by OIA.




         16
            In commenting on a draft of the report, OIA stated that part of the problem in providing
these 12 cases was the National Records Center’s inability to find the case files; or the Center’s
late retrieval of the files; or the OIA’s erroneous entries into the Extradition Case Tracking System
that showed the cases as open, when in fact they were closed and at the National Records
Center.
         17
          The NCIC, a nationwide database managed by the FBI, contains criminal history
information on millions of individuals. The system records arrests, convictions, and identifying
information about criminals submitted by federal, state, and local law enforcement agencies. The
system contains 20 categories of files, including files for wanted persons and foreign fugitives.

U.S. Department of Justice                                                                        17
Office of the Inspector General
Evaluation and Inspections Division
                             RESULTS OF THE INSPECTION

        Our review of 58 cases disclosed that OIA’s effectiveness in processing and
managing an extradition request was inconsistent, depending upon the stage in the
extradition process and the status of any pending actions. In most of these cases, OIA
was effective during the initial review of the extradition request when it ensured that the
request met treaty requirements and satisfied other legal and diplomatic obligations. OIA
also provided support during the extradition procedures once a fugitive was apprehended.
For the cases we reviewed, we also found that OIA met extradition deadlines. OIA’s
attention to an extradition request diminished, however, after it had taken these actions.
With few exceptions, we found that OIA did not review cases to determine whether
follow up was needed or to ensure OIA had taken all action it should have taken on the
cases. This failure to fully manage the extradition process and individual extradition
cases occurred primarily because OIA has not established clear objectives for case
management, has not developed procedures for reviewing cases, has not developed
standards for case files, and has not incorporated the use of an automated case tracking
system in its case management process. Without these basic management procedures,
OIA cannot ensure that all appropriate actions have been taken on each extradition case.

OIA is not Managing its Extradition Cases

        Our review of 58 extradition cases showed that in most cases OIA is effective
when it first receives the requests for an extradition or a provisional arrest from U.S. and
foreign officials. For the cases we reviewed, we found that OIA processed new
extradition requests promptly and ensured that USAOs met provisional arrest deadlines.
We found that if the extradition documents were complete, OIA transmitted them
promptly to the country or USAO responsible for taking the next action. If the
documents from a foreign government were not complete, OIA requested that the country
provide additional information. If documents from the USAOs were incomplete, OIA
advised them of the information needed and provided assistance to ensure the package
was complete. When these new requests resulted in a fugitive’s apprehension, OIA
generally followed through during litigation and surrender.

        We found that once OIA’s initial review had been completed, it would move on to
new extradition requests and other requests that required immediate attention. Unless
prompted by an inquiry or receipt of additional information or documents from an official
involved with the extradition, OIA did not review pending cases or follow up on the
status of actions pertaining to the cases. In some cases, we also found that OIA did not
always act on new information pertaining to a pending extradition or promptly respond to
an inquiry from a prosecutor or foreign official.
        Although it is reasonable for extradition cases to remain open for many
years because of legal or diplomatic issues, we found that many cases remained
open due to inattention. According to OIA staff, they did not follow up on cases
because of the steady receipt of new extradition cases that required their

U.S. Department of Justice                                                               18
Office of the Inspector General
Evaluation and Inspections Division
immediate attention, the large volume of cases assigned to each attorney made
follow up not feasible, and OIA's view that it was not OIA's responsibility to
initiate follow up on pending cases.18 According to OIA officials, U.S. and foreign
investigators, prosecutors, and officials are responsible for monitoring their
extradition cases and for initiating any action needed to further the extradition.
OIA’s responsibility was only to facilitate the action requested by the U.S. and
foreign officials.

       OIA’s actions in the extradition process can significantly affect the
progress made by law enforcement agencies and prosecutors in an extradition
case. In addition to providing legal advice, OIA receives and provides time-
sensitive and critical information on the status of specific activities pertaining to
an extradition case. Extradition cases can involve many federal and foreign law
enforcement agencies – each with different responsibilities in the process. As
events pertaining to an extradition unfold, information that can affect these
agencies’ decisions may not always be communicated to the appropriate
agencies. Our review disclosed cases where there was a lack of communication
among the law enforcement agencies when pursuing the extradition of a fugitive.
Through timely follow up, OIA can be pivotal to the success of an extradition.
Thus, when foreign and U. S. law enforcement agencies and prosecutors do not
contact OIA regarding the pending extradition, we believe OIA should follow up in
a reasonably timely manner with the appropriate agencies to determine the
status of the cases and ensure that the appropriate prosecutors and law
enforcement agencies have the most current information.

       For 34 of the 58 extradition cases we reviewed, OIA could have taken
additional action to facilitate the extraditions if it had reviewed the cases and
followed up with foreign and U.S. prosecutors or responded to previous requests
that went unanswered. The types of actions that OIA could have taken included
closing cases in a more timely fashion, determining the status of requests for
additional information pertaining to an extradition, responding to requests for
information about the status of the case from USAOs, and notifying foreign and
U. S law enforcement agencies of case-related developments. We found that
OIA missed opportunities to gather and provide information that may have
advanced the extradition effort. This occurred because OIA has not implemented
specific management practices to ensure timely and effective review and
disposition of each pending case.
       The following cases illustrate lost opportunities to facilitate an extradition
that can occur without sufficient case management procedures.

                                      Incoming Extradition Request

         18
          Although most OIA attorneys we interviewed frequently expressed this view, we found
that several attorneys initiated follow up on some of their cases and generally managed their
cases more actively.

U.S. Department of Justice                                                                 19
Office of the Inspector General
Evaluation and Inspections Division
             A South American country submitted an extradition request in 1991 for
             a fugitive believed to be in the United States who was wanted for the
             rape and molestation of juveniles. OIA found the request deficient and
             promptly returned it in early 1991, requesting additional supporting
             documentation. The requesting country returned the supporting
             documentation OIA requested in July 1993. In August 1993, OIA again
             returned the request because it still did not meet United States legal
             requirements. According to information in the case file, in July 1995,
             USMS located the fugitive. In April 1997, the requesting country once
             again submitted an amended extradition request. However, we found
             no evidence that OIA had made contact with the country between
             August 1993 and 1997 even after the USMS notified OIA in 1995 that it
             had located the fugitive.

             In 1997 OIA again returned the request. This time, OIA specified that
             “almost all of the prior deficiencies have been corrected. However,
             there is still one area in which the documentation is still lacking.” In
             July 1997, INTERPOL contacted OIA regarding the status of the
             extradition request. This is the last evidence of any action on this case.
             This case is still open at OIA.

       In this case, OIA should have promptly notified the foreign country that the
USMS had located the fugitive and determined whether the foreign country had
the information needed to resolve the legal deficiencies of the extradition request.
Over a period of approximately ten years, OIA promptly critiqued the sporadic
extradition submissions, but did not actively determine the foreign government’s
interest in pursuing the extradition when a critical event occurred in the case, the
location of the fugitive in 1995.

        OIA should have procedures that require OIA staff to establish a timeline
for checking on the status of pending cases to ensure appropriate action has
been completed. For example, in the case we examined in the following box,
OIA did not respond when the country requested more information regarding a
fugitive wanted by the United States. This oversight was not detected for more
than two years.




U.S. Department of Justice                                                                20
Office of the Inspector General
Evaluation and Inspections Division
                                        Outgoing Extradition Request

                    A USAO sought to extradite a fugitive wanted for marijuana trafficking.
                    The foreign country repeatedly asked OIA to provide documents so that
                    the United States’ request could be processed. OIA did not respond.
                    After about two years of asking, an OIA attorney apologized to the country
                    for the delay and asked that it provide OIA with the copies of the
                    documents initially sent because they were missing from the OIA file. OIA
                    had not informed the USAO that the foreign country needed additional
                    documents and the USAO did not know the extradition request was not
                    accepted. Though all documents were eventually provided to the foreign
                    country, the case file shows that there is a chance that the Ministry of
                    Justice may now refuse to process the request because of the delay in
                    receiving the requested information.


        From documentation in other case files, we found instances where it
appeared that either no additional actions were feasible to further the extradition
cases or all possible actions had already been taken. When OIA has determined
after consultation with the USAOs and foreign governments that there are no
additional actions to take in extradition cases, OIA should close the cases. One
of OIA’s country teams implemented an effective practice of routinely discussing
all pending cases with the foreign government. The country team that processes
the extradition cases involving Mexico meets periodically with Mexican officials to
discuss the status of each pending case. At this time, the OIA and Mexican
officials identify the cases that should remain open and those that should be
closed. These periodic reviews are an effective practice for prioritizing the most
important cases and closing others.

       In some instances, we also saw documentation that a case was deemed
closed by OIA even though OIA did not officially close it for several years. For
example, the following case could have been closed years earlier and removed
from OIA’s workload. This case remained open for five years, even though the
requesting country failed to respond in 1994 or 1996 by indicating that it was still
interested in the case.




U.S. Department of Justice                                                                       21
Office of the Inspector General
Evaluation and Inspections Division
                                        Incoming Extradition Request

                  In May 1994, a European country requested the provisional arrest of a
                  fugitive wanted for fraud who was believed to be in the United States.
                  OIA promptly reviewed the extradition request and asked that the
                  requesting country provide an exact location for the fugitive so that the
                  USMS would be able to apprehend him. According to the OIA case file,
                  the country did not provide any additional location information. OIA did
                  not contact the country until September 1996 when it advised the
                  country that because the fugitive could not be located, the matter was
                  considered closed. Furthermore, OIA asked that if the requesting
                  country was still interested, it should contact OIA within 60 days.
                  Again, the country did not respond to OIA’s correspondence. However,
                  OIA did not close the case until November 1999. Though OIA reacted
                  in a timely manner to the original provisional arrest request, it did not
                  follow-up for over two years. Even when it gave the requesting country
                  a deadline to express continued interest in the extradition request, OIA
                  did not close the case until over three years after the 60-day deadline
                  had passed.


       In instances where a specific item of information from the requester, such
as a fugitive’s location, has been requested and is not forthcoming, closing the
case will help alleviate OIA’s case management and tracking responsibilities.
Closing cases when nothing more can be done produces accurate statistics for
management oversight by OIA, the Criminal Division, the Department, and
Congress.

        Each attorney in OIA has a large extradition caseload – averaging approximately
150 cases. With this size caseload, cases can be overlooked when there is a lack of case
management procedures. The lack of periodic review was a particular problem when
attorneys responsible for extradition cases transfer to another team or leave OIA. We
found that newly assigned attorneys did not review the cases to determine their status and
whether any action was needed. Consequently, we found cases were overlooked, as in
the following example:




U.S. Department of Justice                                                                    22
Office of the Inspector General
Evaluation and Inspections Division
                                        Incoming Extradition Request

                  OIA received an extradition request in 1992 from a European country
                  for a fugitive wanted for forgery and fraud. The country also
                  requested a provisional arrest of the fugitive. After nine months in
                  which there was no apparent activity on the part of the United States,
                  the requesting country contacted OIA and inquired why the fugitive
                  had not been arrested. The case file shows that OIA responded that
                  the case had “fallen through the cracks” after the original OIA
                  attorney to whom the case has been assigned had left the office.


        The following incoming extradition case demonstrates how the lack of
effective case management procedures pertaining to timely follow up on
significant case activities can affect OIA’s ability to perform its mission. In
addition, the following case demonstrates the need to fully use law enforcement
information systems to locate fugitives sought by foreign countries and the need
for OIA to explore ways to incorporate checks of law enforcement information
systems (e.g., INS systems and NCIC) in regular reviews of its pending cases.

        The following case also demonstrates that law enforcement agencies may
not always carry out all of their responsibilities pertaining to the arrest and
prosecution of a fugitive. In this case, the USAO had an arrest warrant issued
but the fugitive was not located, and the USMS did not enter the warrant into
NCIC. Moreover, the USAO did not notify OIA that the fugitive was not arrested
and OIA did not determine the status of the case or inform the foreign country
that the fugitive was not located. We found through an NCIC check that the
fugitive committed a violent crime while in the United States, was arrested,
sentenced, and released from prison.




U.S. Department of Justice                                                                 23
Office of the Inspector General
Evaluation and Inspections Division
                                       Incoming Extradition Request



 Case File Review -- In May 1992, OIA received a provisional arrest request for a fugitive who had
 been sentenced to nine years imprisonment for his conviction on cocaine importation charges in a
 European country. The fugitive, a Jamaican citizen, fled the requesting country prior to his
 incarceration. This foreign government believed the fugitive to be in New York City, so in July
 1992 OIA forwarded the provisional arrest request to the USAO to obtain an arrest warrant. The
 OIA case file indicated that in August 1992 the fugitive had not yet been located. The next action
 documented in the case file occurred in February 1993 when OIA forwarded to the USAO
 additional documents supporting the provisional arrest, which were recently received from the
 requesting country. There was no documentation in the case file indicating why the country sent
 additional documentation seven months after the original request. We found an adhesive note in
 the case file that read, “Warrant was Issued Mar[ch] 12, 1993.” We found no additional
 documentation after that date in the case file or ETS. We spoke with the USAO regarding the
 warrant because there was no indication in the file whether it was served. The USAO informed us
 that the USMS was unable to serve the warrant because the fugitive was not at the location
 specified by the requesting country. In addition, the USMS never entered the arrest warrant into
 NCIC. There is no indication in the case file that OIA ever followed up with the USAO or USMS to
 determine whether the fugitive was arrested – a significant event in the extradition process. Nor
 did OIA follow up with the foreign government regarding the status of the extradition. OIA relied on
 U.S. and foreign law enforcement agencies to take the appropriate actions and did not believe
 follow up was necessary. OIA, however, should follow up with these agencies when information is
 not received after a significant event occurs. In addition to providing timely feedback, it is possible
 that OIA‘s follow up would have detected that the USMS did not enter the arrest warrant into NCIC.
 There had been no activity on this case since 1993 and the case remains open.
 Interview -- We interviewed the OIA attorney currently assigned to this case (he was not the
 attorney assigned to the case in 1993) to determine whether OIA had additional information
 regarding this case that was not in the file. The attorney could not provide any additional
 information. The attorney stated he found the information in the case file to be adequate and that if
 he wanted to determine the case status, he would contact the foreign government to determine
 whether it was still interested in pursuing this extradition.
 OIG Database Searches -- During our review, we searched the NCIC database and found that this
 fugitive had been arrested in August 1993 in Okaloosa County, Florida, for attempted homicide.
 This arrest occurred five months after the warrant was issued for the fugitive’s arrest in the
 extradition case. The fugitive pleaded guilty to aggravated battery with a firearm and was
 sentenced in December 1993 to three years incarceration in state prison. We also searched the
 Immigration and Naturalization Service’s (INS) Central Index System (CIS) to determine whether
 this fugitive had come in contact with the INS, since OIA documentation indicated he was not a
 U.S. citizen. According to CIS, the fugitive was ordered removed based on violations of
 immigration law because of his state conviction. He was removed from Miami in November 1996,
 presumably to Jamaica. There is no indication that OIA was aware of this INS removal.


U.S. Department of Justice                                                                          24
Office of the Inspector General
Evaluation and Inspections Division
       OIA does not match information pertaining to United States and foreign
extradition requests with law enforcement information systems such as NCIC
because it does not have access to them. Unless a Red Notice or extradition
warrant19 is issued, U.S. law enforcement authorities that come in contact with
the fugitive separate from the extradition would not be aware of the extradition.
Although we were told that OIA might query the INS regarding a fugitive’s
immigration status, we were also told that it is not a common practice.

       We also found several instances when OIA’s review of an extradition
request did not detect deficiencies in the legal requirements of extradition
requests before transmitting the documents to the USAOs or foreign
governments. Our review of the 58 case files disclosed that 9 files had
information showing that OIA country teams reviewed and sent cases forward
that did not meet legal requirements of the United States or foreign governments.
OIA does not have procedures in place to ensure that each case receives an
adequate legal sufficiency review, and as a result there were occasions in which
cases that did not meet legal standards were forwarded to the USAO or foreign
country. For example, case files showed that USAOs rejected cases sent to
them by OIA because there were substantial probable cause problems. Foreign
countries also rejected cases because dual criminality was absent. Two of three
AUSAs we interviewed, who served as International and National Security
Coordinators for their USAOs, were critical of OIA legal advice and the
completeness of the cases sent to them.20

       OIA’s Associate Directors told the OIG that they meet with team members
to discuss extradition cases. However, they do not routinely review cases to
assess whether cases are complete before OIA sends them to either the foreign
country or USAO for action. Without reviewing case files, Associate Directors
may not even be aware that cases were returned to OIA because they were
deficient. Routine supervisory review of the work performed by subordinates is a
standard management practice that provides managers with some assurance
that cases are processed in accordance with laws, regulations, treaties, and
procedural requirements.



         19
           According to the USMS Domestic Fugitive Unit, U.S. law enforcement officials verify
the location of fugitives wanted by foreign governments prior to the U.S. arrest warrants being
issued. Once the warrant is issued, law enforcement officials go to these locations to arrest the
fugitives. When the locations are still accurate, the fugitives are arrested so there is no need to
enter the warrants into NCIC. However, when the locations are no longer valid and the fugitive is
not arrested, the arresting agency (usually the USMS) is responsible for entering the warrants
into NCIC. In the previous case on page 23, the USMS had the responsibility to enter the warrant
into NCIC, which probably would have been checked by law enforcement officers when the
fugitive was arrested in Florida.
         20
              The third AUSA was critical of OIA's lack of cooperation and assistance.

U.S. Department of Justice                                                                      25
Office of the Inspector General
Evaluation and Inspections Division
       Case management procedures become more critical as the average
number of cases pending at the end of each year per attorney has grown from 80
in 1990 to 153 in 2000. Although OIA performs the initial review of extradition
requests promptly, it does not have procedures that ensure cases receive
appropriate attention while pending. With an increasing pending caseload,
standard policies and procedures for case management are needed so that
cases are prioritized for timely follow up. OIA should also develop a systematic
method of determining when OIA staff and supervisors should review a case.
Each time OIA completes an action on an extradition request, a follow-up action
date should be established so that cases can be reviewed. OIA attorneys could
determine time frames for follow up based on the priority of the case, whether the
case is legally complete, or whether there is continued interest by the foreign
country or USAO. In addition, these procedures would detect matters that may
have been overlooked, errors in judgment, overlooked action or follow up on prior
actions, and possible new strategies for resolving extradition cases. OIA also
has not developed internal policies, procedures, or standards that delineate staff
responsibilities or communicate management’s expectations for processing
extraditions. Therefore, OIA is not assured that attorneys explicitly understand
that their responsibilities include effectively managing their pending cases in a
manner that facilitates the extradition process. These types of policies and
procedures would ensure that OIA attorneys actively manage cases and make
conscious decisions on the status of the case, ensure appropriate actions have
been taken, and establish a review date to reassess the status of the case.

The United States Criminal Justice Extradition Process Limits OIA's Ability to
Help Extradite a Fugitive

        As described in the United States Attorneys’ Manual, OIA advises and assists
U.S. law enforcement personnel and prosecutors on options for capturing and
apprehending a fugitive if the extradition request is not viable or the fugitive cannot be
located in the foreign country. For example, OIA can recommend that prosecutors revise
the extradition request, modify criminal charges, or work with the prosecutor and the
Department of State to seek deportation. OIA can also advise law enforcement personnel
and prosecutors on the use of Interpol Red Notices. OIA is aware that the decision to
extradite is costly and must be weighed by the U.S. agencies.

        When a fugitive is believed to be in the United States and the extradition request
submitted by a foreign country is deficient or the specific location of the fugitive is not
known, OIA staff said they have few options to assist foreign governments achieve
extradition or advise law enforcement agencies of the pending extradition. If the
extradition request does not meet treaty requirements or other U.S. standards, OIA can
inform the foreign country of the deficiency. However, OIA staff told the OIG that it is
up to the foreign country to determine its next course of action. If the extradition request
is viable but the location of the fugitive is not known, it is the responsibility of the foreign
government to provide the correct location. If the location is unknown, an arrest warrant

U.S. Department of Justice                                                                   26
Office of the Inspector General
Evaluation and Inspections Division
        in the United States will not be issued. Meanwhile, fugitives wanted for very
serious crimes remain at large in the United States.

        If local law enforcement agencies detain or arrest an individual for a crime
committed while in the United States, law enforcement agencies have no way to
determine whether the individual is a fugitive wanted for extradition in a foreign country
unless the foreign country issues a Red Notice or a U.S. arrest warrant has been issued.
OIA has no means to alert law enforcement agencies of a pending extradition. Without a
mechanism to alert U.S. law enforcement agencies of the pending extradition, fugitives
can remain undetected even if arrested, incarcerated, and released.

        In some instances, OIA may have information that would indicate a fugitive is an
alien and may be in the United States illegally. For these cases, OIA could notify the INS
and the INS could determine whether the fugitive should be deported. However, our
interviews with OIA attorneys indicated that they rarely refer information to the INS.

        As of November 2000, OIA had pending extradition requests for over 1,000
fugitives believed to be in the United States.21 Most of these fugitives were wanted for
serious crimes, including violent crimes. If the incoming extradition request does not
meet all treaty requirements, the United States may not have any basis for alerting law
enforcement agencies. However, if the incoming extradition request meets the legal
requirements of the treaty but the fugitive’s location is not known, U.S. lookout systems
should enable law enforcement agencies to be alerted to notify OIA if the fugitive is
arrested or located.

        For 28 incoming extradition requests we reviewed, we selected 26 fugitives and
ran NCIC checks to determine whether the fugitive committed crimes after the
extradition request had been received by OIA. Through a comparison of names, aliases,
dates and places of birth and other details, we found 4 matches. Thus, potentially 4 of the
26 fugitives were arrested for various crimes committed while in the United States.

        For incoming extradition requests that involve a fugitive who is not a U.S. citizen,
OIA can coordinate with the INS to determine whether INS can deport the fugitive. In
other instances, no procedure exists for OIA to alert U.S. law enforcement agencies of the
pending extradition. OIA should meet with representatives from the FBI to determine
whether fugitive information can be entered into NCIC in those cases in which the
extradition request is viable but the location of the fugitive is not known. OIA should
also request arresting agencies to enter U.S. arrest warrants into NCIC when fugitives are
not immediately arrested after the warrant is issued.


         21
           Foreign countries forward extradition requests to the United States intending that the
fugitive can be apprehended in the United States. However, in some instances, the fugitive may
not currently be in the United States – either the fugitive was never in the United States or has
already left.

U.S. Department of Justice                                                                     27
Office of the Inspector General
Evaluation and Inspections Division
OIA has not Developed Standards for Maintaining its Extradition Case Files

        As the central point of contact for extradition requests, OIA receives documents
and information that comprise the official record of the extradition effort. OIA receives
the official extradition documents, such as the transmittals and certifications; legal
documents, such as affidavits; and other required records, such as the address or location
of the fugitive. OIA also receives correspondence, diplomatic information, and
intelligence information, including classified information, from the Department of State,
law enforcement agencies, prosecutors, and other sources. In addition, OIA receives
information through telephonic contacts, telexes, and other informal methods of
communication.

        OIA is responsible for processing the extradition case information and
maintaining the information so that the agencies involved in the extradition will receive
relevant information. To be a comprehensive record of actions related to the extradition,
OIA's files should include all information about the cases. To effectively provide advice
and assistance in extradition cases, OIA staff must have access to organized and complete
information regarding all actions on an extradition case. Additionally, as a result of
attorney turnover and absences from the office, OIA staff attorneys must often assume
responsibility for other attorneys’ extradition cases and quickly familiarize themselves
with the case details. Therefore, case files should contain all case-related information so
an attorney unfamiliar with the case can easily discern the case’s status and history.

       In some cases, a number of different OIA attorneys handle parts of the
extradition because of the primary OIA attorney’s reassignment or absence. One
attorney stated that if the case file did not contain complete information regarding
an extradition, he would have to call the applicable government or U.S.
prosecutor to ascertain the status of the case or request copies of missing
documents.

      Our review showed that the extradition case files were not consistently
organized or complete. In 31 of the 58 extradition case files we reviewed,
documents were not in any discernible order or key documents and information
were missing. From the conditions of these case files, we could not readily
determine the history and status of the extradition requests. To understand what
had occurred in some extradition cases, we had to first sort case documents,
then develop spreadsheets to organize case actions by date. After putting all the




U.S. Department of Justice                                                              28
Office of the Inspector General
Evaluation and Inspections Division
information in order, we found that important information was missing in some
cases. The following case illustrates how missing documents may seriously
jeopardize the extradition’s success.

                                         Outgoing Extradition Request

        The USAO for the District of Oregon requested the provisional arrest of a fugitive wanted in
        a murder conspiracy. To construct a coherent timeline from documents in the case file, we
        developed a spreadsheet that documented case actions and respective dates. Only after
        sifting through the volume of disorganized documents and logging each document into the
        spreadsheet were we able to reasonably determine how this case progressed.

        We discovered that documents were missing from the case file. In a letter dated June 20,
        1995, the OIA attorney states, “ . . . I have searched the files for the specific documents you
        mentioned in the message. Unfortunately, the documents are not in the file.” Not only are
        those documents missing from the case file, the facsimile sent by the African country’s
        Attorney General to which the OIA attorney is responding is not in the file. Additionally, the
        letter states, “I will ask Harry . . . for a copy of Exhibit 5b which he provided with his affidavit
        dated 16 August 1991.” The letter continues, “Please send these documents to me . . . “ At
        the bottom of the page is a handwritten note that states, “Harry does NOT have a copy of
        his affidavit.” Thus, retrieving one document, the affidavit’s exhibit, proved problematic, as
        the original source of the document did not retain a copy. In this instance, documents
        were missing that should have been in OIA’s case file and OIA was forced to solicit copies
        from other entities. The last action related to the extradition in the case file occurred on
        November 6, 1995. As we learned from earlier correspondence, the extradition hearing
        was to be held on November 13, 1995. However, the case file contains no additional
        documentation that describes the outcome of that hearing. OIA records indicate the case is
        still open, but it is impossible to know from the case file what occurred after November 6,
        1995.


        Documentation in the case files revealed that the conditions of case files
sometimes have frustrated OIA staff. In a case file for an incoming extradition
request for a fugitive wanted for narcotics trafficking, a note indicated that OIA
had requested that the USMS locate the fugitive in June 1996. There is no
indication the USMS responded to the request. An OIA letter dated June 2,
1998, to the USMS, states, “I inherited this case recently and am relying on our
office’s record system, which references the June 28, 1996, letter, to reconstruct
the file. I have no hard copy of that letter, nor am I able to have a copy produced
for you.” Neither the USMS nor OIA had a copy of the request to locate the
fugitive.




U.S. Department of Justice                                                                               29
Office of the Inspector General
Evaluation and Inspections Division
       Most OIA staff said that the files should be organized chronologically, with
the latest documented action appearing on top, to facilitate an easy
determination of the most recent case action. However, we found the documents
were not always ordered chronologically and staff members maintained their
case files in any manner they chose.

        We were told that many significant events within an extradition case are discussed
solely via telephone conversations. Though OIA attorneys often maintain records of
these conversations, many times these records are not included in the case files. As
significant amounts of time pass and staff members change, crucial information may not
be remembered or available that could affect later decisions.

       For some cases, we determined the case history, status, and that
documents were missing only by comparing information in the case files with
case information in ETS. Through these checks, we determined that paperwork
was missing from the case files in the following examples:

         x Open outgoing case - Key documents that were listed in ETS were not
            in the case file, such as the finalized extradition documents.

         x Open incoming case - According to ETS, this case was opened, closed
            and reopened. None of the documents related to the original case was
            in the file.

         x Closed incoming case - There was no documentation closing the case
            in the file, though ETS indicated that the case was, in fact, closed.

         x Closed outgoing case - According to ETS, this case was opened,
            closed, reopened and closed once again. However, the file makes it
            appear as if the case was closed once and never reopened.

         x Open outgoing case - When OIA requested that the foreign country
            reopen this case, the OIA attorney who inherited this case also sent a
            letter asking for the foreign country’s assistance in providing a copy of
            a memorandum that could not be located in the OIA case file.

         OIA also has not established record maintenance procedures for
managing the case files. In practice, each attorney and paralegal is responsible
for keeping track of his or her case files. Even though OIA has centralized file
facilities, attorneys and paralegals stored case files in their file cabinets or piled
them on desks, tables, and floors in individual offices. These practices do not
safeguard or maintain control over the files.

         Maintaining complete and accurate case files is important to managing extradition


U.S. Department of Justice                                                             30
Office of the Inspector General
Evaluation and Inspections Division
cases effectively. Organized case files should enhance OIA's ability to determine the
status of extradition cases and determine the next action that should be taken. Complete
case files ensure that OIA decisions are based on a comprehensive knowledge of the
underlying reasoning and actions in each case. Disorganized files may result in attorneys
and paralegals spending inordinate amounts of time trying to determine the status of
extraditions and the next actions to take. Incomplete case files may force attorneys and
paralegals to recreate extradition steps that already may have been taken, provide
incorrect or incomplete advice regarding the extradition request, or require OIA to
contact the requesters for copies of documents.

OIA Does not Have Adequate Methods for Tracking Extradition Case
Actions

       ETS is designed to track case information and correspondence, identify
and monitor the status of extradition cases, and generate statistics about the
extradition process such as the number of pending extradition cases.

       OIA staff in Washington, D.C., have varying degrees of access to ETS.
OIA Docketing Unit enters nearly all the case information into ETS, although the
attorneys and paralegals can enter data that pertain to their cases. OIA
managers use ETS to construct management reports, such as the number of
cases assigned to each attorney on a country team. OIA attorneys and
paralegals use ETS to determine basic information regarding cases, such as the
USAO contact, but generally do not use ETS to track case activities or to
manage their caseload.

       ETS contains information about individual extradition cases. Data fields
include the name of the fugitive, OIA attorney assigned to the case, type of
extradition (incoming or outgoing), foreign country involved, and U.S. jurisdiction
involved. A major component of ETS is the “Remarks” text field. This field is
intended to capture (in narrative form) significant information about case actions
sent and received by OIA through documents or other methods, such as
telephone calls. However, during our review of the 58 cases, we compared the
information in the case files to the information in ETS. We found that the
information did not agree in 18, or 30 percent, of the cases. We found
inconsistent information on the status of the case, whether the case was opened
or closed,22 the OIA attorney assigned to the case, dates of events, and the
documents received by OIA.

       According to our interviews with OIA staff, we found that the country
teams are not fully using ETS. Of the 14 staff members we interviewed, 10 (6
attorneys and 4 paralegals) said that they generally do not use ETS to determine

         22
           ETS indicated that three cases in our sample were open, while OIA officials later
notified us that the cases were closed.

U.S. Department of Justice                                                                     31
Office of the Inspector General
Evaluation and Inspections Division
case status. They said that ETS is unreliable or is not user friendly. Many staff
members said they use ETS to determine basic case identifying information,
such as OIA attorney assigned, but if they want to determine case actions or
status, they generally refer to the case file.

Instead of using ETS, country team staff have devised their own methods for
                       tracking cases. The methods vary from person to person,
                       across country teams. For example, Team III (Latin
                       American) uses a case status matrix to track only
                       outgoing extradition requests to Mexico, including current
                       case status and next recommended action. Conversely,
                       other country team attorneys and paralegals have less
                       sophisticated methods to track open extradition cases and
                       deadlines. For instance, some track deadlines and cases
                       by handwriting provisional arrest dates on a desk
                       calendar, maintaining a mental list of open cases, and
                       attaching notes to case files.

        According to our interviews with OIA staff and our review of the paralegals’
position descriptions, OIA paralegals are expected to maintain a record-keeping
system for tracking extradition cases. Each paralegal we interviewed said they
had developed their own tracking system apart from ETS to monitor the most
pressing matters, such as provisional arrest deadlines, in their extradition cases.
However, none of these systems is designed to track the next actions required in
the country teams’ extradition cases. Thus, ETS is not used to alert staff of all
upcoming actions or prompt staff to periodically review dormant cases.
Therefore, we found that neither ETS nor the paralegals’ case tracking systems
is effective in tracking extradition cases and actions.

        The inconsistency and inaccuracy of data in ETS affects the reliability and
usefulness of management reports. A common, dependable tracking system
would also provide the staff and managers with a mechanism to track case
assignments and to monitor the status of actions on open extradition cases.
Monitoring the cases through a reliable system would enable the staff to make
informed, timely decisions regarding the next steps to take in the extradition
process. Without a reliable, office-wide tracking system, open cases may be
overlooked and actions not completed. For example, OIA had transmitted
translations of extradition documents to a foreign country’s Ministry of Justice for
a fugitive wanted in the United States for fraud and price fixing. This was the last
case action in the file and in ETS for almost six years. A mechanism to track
actions would have notified the OIA attorney that the foreign government had not
provided a response regarding the extradition, and that OIA should follow up to
determine the case’s status and whether OIA could do anything to further the
extradition.


U.S. Department of Justice                                                        32
Office of the Inspector General
Evaluation and Inspections Division
                                OIA Needs to Develop Relevant Performance
                                Measures

       The Government Performance and Results Act of 1993 requires agencies
to set multiyear strategic goals and corresponding annual goals to measure the
performance toward the achievement of those goals, and to report on their
progress. Setting goals and measuring performance helps to establish priorities,
control operations, communicate accomplishments, and motivate staff.

       The Department’s Strategic Plan for Fiscal Years 2001-2006 outlines
specific program goals, objectives, and strategies. One strategic goal is to
“Enforce federal criminal laws.” A strategic objective supporting this goal
addresses reducing violent crime (Objective 2.1) through a variety of supporting
strategies. OIA links its performance to the supporting strategy that promotes
increased cooperation with foreign law enforcement authorities and uses the
“number of new treaties23 with other countries entering into force” as its
performance measure.

        Although the OIA has established performance measures for its treaty
negotiation responsibility, OIA has not established performance measures for its
other major responsibilities, such as processing extradition requests and
evidence requests under the treaties. As the “law enforcement community’s sole
coordinator for all requests for international extradition and the Central Authority
for the United States under 37 MLATs in force,”24 measuring OIA’s performance
in these responsibilities is appropriate and important.




         23
              Extradition treaties and MLATs.
         24
              The Department’s FY 2000 Performance Report and FY 2002 Performance Plan.

U.S. Department of Justice                                                                33
Office of the Inspector General
Evaluation and Inspections Division
                    CONCLUSION AND RECOMMENDATIONS

       We found that OIA’s effectiveness in managing extradition requests
depends upon the status of the extradition and actions generated by outside
prosecutors and law enforcement authorities. OIA meets deadlines mandated by
the treaties or courts and acts on new extradition requests promptly. However,
our review of 58 cases indicated that OIA could have taken additional action in
nearly 60 percent of the cases.

       OIA has significant responsibilities in the extradition process. In addition
to ensuring the extradition request meets legal and treaty requirements, OIA is
responsible for managing information that may affect decisions pertaining to the
extradition. OIA should ensure that the appropriate law enforcement authorities
and prosecutors receive important information pertaining to the fugitive, that
foreign and U.S. prosecutors follow up to obtain requested information needed to
extradite a fugitive, and if the extradition is not successful, whether the
requesting organization is still interested in pursuing the fugitive. Under its
current practices, OIA does not actively manage its extradition caseload in a
manner that ensures that all necessary actions on extradition cases are
completed. OIA relies on U.S. or foreign prosecutors to initiate all actions. OIA
has not developed internal policies, procedures, or standards for processing
extradition cases that delineate staff responsibilities, time frames, or priorities to
guide employees or communicate management expectations. In addition,
because of their current caseload and their view of their responsibilities, OIA
attorneys believe that they do not need to do more in the extradition process.
Accordingly, we found instances when OIA should have ensured prosecutors
received important information and cases where OIA did not act upon requests
from prosecutors. We believe that OIA’s current practices fall short of its mission
and the office needs to establish procedures for case file review to ensure that it
has taken all actions to facilitate the extradition.

       The majority of case files we reviewed were either disorganized or missing
key documents and information. From the conditions of the case files, the history
and status of the extradition requests could not be readily determined. OIA has
not established and implemented standards for maintaining the extradition case
files.

       ETS is not used office-wide as a case tracking system and OIA staff do
not find it to be reliable or user-friendly. While OIA staff have devised their own
methods for tracking cases, we found these methods are inadequate for the
volume of extradition cases that must be tracked and for the type of data needed
for management oversight.



U.S. Department of Justice                                                          34
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

         We recommend that OIA:

1.       Develop case management policies and procedures to guide its staff in
         the extradition process. At a minimum, these policies should require

                   x OIA staff to prioritize cases for timely follow up,

                   x OIA staff to systematically review pending extradition cases to
                      determine whether the status of the case is correct and
                      determine the next possible action,

                   x OIA staff to review all cases to ensure legal sufficiency,
                      timeliness, and completeness of actions, and

                   x OIA supervisors to review cases.

2.       Coordinate with the FBI, USMS, and INS to develop strategies for law
         enforcement officials to identify individuals who are the subjects of
         extradition requests.

3.       Develop standards for maintaining complete and organized extradition
         case files and accounting for the physical location of each file.

4.       Incorporate into the extradition process an automated case tracking
         system that provides reliable and complete data.

5.       Develop performance measures for processing extradition requests and
         monitor the office’s progress against those measures.




U.S. Department of Justice                                                              35
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX I: PROCESS FOR INTERNATIONAL
                        EXTRADITION REQUESTS

         International extraditions involve two separate but similar processes.

Incoming Extradition Requests

       A foreign government may request the arrest of a fugitive in the United
States so an extradition hearing may be held. The process for an incoming
extradition is:

         x A foreign government forwards an extradition request to the
            Department of State. The Department of State’s Office of the Legal
            Advisor’s Law Enforcement and Intelligence (OLA/LEI) certifies that
            there is a binding extradition treaty between the United States and
            requesting country. The Department of State forwards the extradition
            request to OIA.

         x The incoming extradition request is assigned to the OIA country team
            that handles the requesting country. A team attorney certifies that all
            appropriate documentation is included. The attorney also reviews the
            request for legal sufficiency, ensuring that probable cause exists that
            the fugitive committed the crime, and that specific location information
            on the fugitive is provided. When this review is completed, a letter
            describing the facts of the case and identification information on the
            fugitive, plus all documentation received from the requesting
            government, is forwarded to the International/National Security
            Coordinators (INSC) at the USAO in the federal jurisdiction where the
            fugitive is believed to be located.

         x The INSC ensures the extradition case is assigned to an AUSA. The
            AUSA obtains an arrest warrant for the fugitive from a federal judge or
            magistrate in the district where the fugitive is believed to be located.

         x The USMS in the district where the warrant is issued then arrests the
            fugitive. At an initial appearance before an extradition magistrate,25 the
            AUSA opposes bail, which is the standard U.S. government position. In


         25
           Title 18, Section 3184, of the United States Code provides that an extradition
magistrate can be “any justice or judge of the United States, or any magistrate authorized to do
so by a court of the United States.” An extradition magistrate has the jurisdiction to order the
arrest of a foreign fugitive for the purpose of securing his presence for an extradition hearing
before such justice, judge, or magistrate.

U.S. Department of Justice                                                                         36
Office of the Inspector General
Evaluation and Inspections Division
              most cases, the magistrate conducting the proceedings does not grant
              bail.

         x During the extradition hearing, the AUSA addresses the following key
            elements that must be satisfied for a magistrate to issue a certification
            of extraditability: the court must determine that (1) an extradition treaty
            is in force between the United States and requesting country;
                    (2) criminal charges are pending in the requesting country; (3)
            the crimes charged are encompassed within the extradition treaty; (4)
            the fugitive is, in fact, the person accused of committing the crimes
            charged; and (5) probable cause exists to believe that the fugitive
            committed the crimes charged.

         x If the court finds that the fugitive is extraditable, the magistrate issues a
            certification of extraditability. The Department of State’s OLA/LEI is
            informed when the magistrate issues the certification. The Department
            of State then issues a surrender warrant, which officially surrenders the
            fugitive to the respective foreign government.

         x A fugitive does not have the right to appeal a finding of extraditability.
            However, the fugitive may file a petition for writ of habeas corpus.26 If
            the petition for the writ is denied, the fugitive may appeal the denial
            through the federal court system. Should the magistrate rule that the
            government’s case does not sustain a finding of extraditability, the
            United States has no right of appeal. The United States can, however,
            remedy any defects that led to the denial of extradition and resubmit
            the foreign country’s extradition request multiple times.

         x After the Department of State issues the surrender warrant, law
            enforcement officers from the foreign country that requested the
            fugitive’s extradition then come to the United States to transfer the
            fugitive to the requesting country.

Outgoing Extradition Requests

The U.S. prosecutors at the federal, state, and local level initiate outgoing
                      extraditions. An outgoing extradition can typically involve
                      the following steps:

         x After a suspected or convicted criminal has fled the United
            States and has been located in a foreign country, the U.S.

         26
           The primary function of a writ of habeas corpus is to release a person from unlawful
imprisonment. The only issue that it presents is whether the person is unlawfully deprived of his
liberty. The filing of the writ does not automatically delay further extradition proceedings.

U.S. Department of Justice                                                                      37
Office of the Inspector General
Evaluation and Inspections Division
              prosecutor contacts OIA to commence the extradition process.
              The case is then assigned to a team depending on the fugitive’s
              location. An OIA attorney from the appropriate country team
              determines whether an extradition treaty exists between the
              foreign government and the United States. The attorney must
              also determine whether the crime committed by the fugitive is a
              crime encompassed within the treaty and is therefore an
              extraditable crime. The OIA attorney checks the fugitive’s
              citizenship because some countries will not extradite their own
              citizens.

         x The U.S. prosecutor prepares the formal extradition documents,
            which are reviewed by an OIA attorney. Included in the request
            is the prosecutor’s affidavit outlining the facts of the case. The
            affidavit identifies the criminal offenses committed, legal statutes
            violated, and the penalties and statutes of limitations for the
            violations. The prosecutor’s affidavit is accompanied by copies
            of the charging documents, such as the indictment and arrest
            warrant. After the prosecutor completes the request, the OIA
            attorney reviews the request for legal sufficiency and probable
            cause that the fugitive committed the crimes.

         x In addition to reviewing and evaluating the extradition request,
            the OIA attorney determines whether the likelihood exists that
            the fugitive may flee once a formal extradition request is
            presented to the foreign government, or the fugitive poses a risk
            to the public. If the OIA attorney is satisfied that a potential for
            flight or a safety risk exists, then a request for a provisional
            arrest is forwarded to the foreign country. A provisional arrest
            allows the foreign government’s law enforcement authorities to
            arrest a fugitive before a formal extradition request is submitted.
            Once a provisional arrest is carried out, the United States must
            meet a treaty-imposed deadline for submitting the formal
            extradition request to the foreign government. The deadline
            varies by treaty, but usually ranges between one and three
            months.

         x The U.S. prosecutors may request INTERPOL Red Notices
            apart from requesting an extradition through OIA.27 If a fugitive
            is located in a foreign country based on a Red Notice, the U.S.
            National Central Bureau (USNCB) of INTERPOL notifies OIA.

         27
            An INTERPOL Red Notice is submitted by a government that is seeking the arrest of a
fugitive for whom an arrest warrant has been issued, the fugitive’s whereabouts are unknown,
and extradition of the fugitive will be requested by the government that submitted the Red Notice.

U.S. Department of Justice                                                                      38
Office of the Inspector General
Evaluation and Inspections Division
              Law enforcement in some countries are authorized to arrest a
              fugitive based only on a Red Notice, while other governments
              require an official provisional arrest or formal extradition request
              to arrest a fugitive. Regardless of the notifying foreign
              government’s practices, OIA is in the position to move forward
              with a provisional arrest or extradition request assuming a treaty
              exists between the two countries. OIA contacts the U.S.
              prosecutor who requested the Red Notice to determine whether
              the prosecutor wants to proceed with the extradition.

         x After being approved by OIA, the formal extradition request is
            sent to Department of State’s OLA/LEI and then presented
            through diplomatic channels at the Department of State to the
            foreign government. After the foreign government’s law
            enforcement authority arrests the fugitive, an extradition hearing
            is conducted in the foreign court. If the court finds that the
            documentation presented by the United States is sufficient, then
            a certification of extraditability is rendered. If the court does not
            find the documentation sufficient, then the extradition request is
            denied. When a court grants the extradition request, the fugitive
            has the right to appeal.

         x The certification of extraditability is a legal order to return the
            fugitive to the United States. While the USMS is primarily
            responsible for escorting the fugitive back to the United States,
            state and local law enforcement representatives may
            accompany the Deputy Marshals in escorting the fugitive back
            to the United States.

        These extradition steps represent the basic procedures for incoming and
outgoing extradition requests. However, the order and degree to which these
procedures are employed depends upon the extent to which the extradition
progresses. The extent of an extradition is, in turn, affected by various factors,
such as the sufficiency of the information in the extradition request and
extradition treaty provisions such as dual criminality, that determine the viability
of the international extradition of fugitives.




U.S. Department of Justice                                                           39
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX II: TABLE OF RESPONSIBILITIES –
       OTHER U.S. AGENCIES IN THE EXTRADITION PROCESS



              Roles of Other U.S. Government Agencies in the Extradition Process

             U.S. Attorneys’ offices                      U.S. Marshals Service



x In incoming extraditions, obtain             x In incoming extradition cases,
   federal arrest warrants for fugitives           verifies locations of and apprehends
x Represent the U.S. government in                fugitives
   federal extradition hearings for             x Transfers custody of fugitives to
   incoming extradition requests                   foreign authorities upon finding of
x Oversee incoming extradition cases              extraditability
   in their federal districts                   x In outgoing extradition cases,
x Prepare outgoing extradition                    accepts custody transfer of fugitives
   documents for OIA review                        from foreign authorities.
x Provide responses, such as                      Accompanies fugitives to the United
   supporting evidence, in outgoing                States for prosecution or
   extradition requests                            incarceration
x Prosecute those international
   fugitives successfully extradited to
   the United States who are charged
   with federal crimes


            U.S. Department of State                   U.S. National Central Bureau


x Facilitates delivery of extradition          x Serves as U.S. representative to
   documents to and from foreign                   INTERPOL
   governments                                  x Forwards information obtained
x Authenticates extradition                       through U.S. and international
   documents and certifies that they               sources on the whereabouts of
   contain all required documents                  fugitives to OIA
x Provides updates to OIA on the               x Reviews Red Notice fugitive
   status of outgoing extradition                  lookouts for U.S. prosecutors and
   requests                                        forwards them to INTERPOL
x The Office of the Legal Advisor’s               headquarters in France
   Law Enforcement and Intelligence             x Notifies OIA when fugitives from the
   is the principal point of contact for           United States have been
   extraditions                                    apprehended based on Red Notices

U.S. Department of Justice                                                            40
Office of the Inspector General
Evaluation and Inspections Division
                                                   so that OIA can commence the
                                                   extradition process

        Source: OIA, Department of State, USNCB, U.S. Marshals Policy Directive, U.S.
Attorneys’ Manual, and INTERPOL Internet site




U.S. Department of Justice                                                              41
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: CRIMINAL DIVISION MANAGEMENT’S RESPONSE




SUBJECT:       Comments on OIG draft report A-2000-21, regarding the Office of
               International Affairs

       This memorandum responds to your request for comments on draft Report A-2000-21,
concerning the Office of the Inspector General's Review of the Office of International Affairs'
Role in the International Extradition of Fugitives. In addition to the general comments set out in
this memorandum, I have attached detailed comments and proposed revisions to the draft report
prepared by the Office of International Affairs.

       At the outset, it should be emphasized that we have no significant disagreement with the
recommendations of the Office of Inspector General set forth on page 34 of the report. To the
contrary, the Office of International Affairs has already undertaken a number of changes in its
management procedures, some resulting from an internal review of the overall responsibilities
and operations of the office, and others based upon some very practical recommendations made
by the Office of the Inspector General in this report.

        However, we disagree with a number of the report's findings. Our concerns regarding this
report are rooted in three basic areas. First, and most importantly, the report fails to address the
context in which OIA's responsibilities relating to extradition matters must be reconciled with
other critical duties and responsibilities of the office. The demands of extradition cases are a
priority for the Office of International Affairs, but they are not the only priority. To accurately
assess OIA's role in the extradition process, the report must at least consider the overall
responsibilities of the office, including the mounting demands of mutual legal assistance
requests, the negotiation and implementation of bilateral and multilateral treaties and agreements
and other areas (all of which occupy the majority of resources and time of the office). While


                                                                                          42
these areas of responsibility are not the focus of this report, failure to consider their impact on the
office as a whole can lead to a flawed analysis of how the extradition process is being addressed.
Over the last ten years, the strain on OIA's resources has steadily increased, and until the end of
this year, has gone unaddressed. While resource considerations do not excuse many of the case
management deficiencies cited in the report, they cannot be ignored as a factor exacerbating the
office's mounting backlog of pending cases. Proposed text that would provide some context for
the main body of the report is attached.

        Second, a significant component of the report contains conclusions of the inspection team
that action taken by OIA staff in six extradition cases was deficient. While we do not argue that
action in some of the cases reviewed may have been deficient - the most common deficiency
being the failure to close moribund cases - some very negative conclusions reached in at least
three of the examples set out in the report seem to reflect some fundamental misconceptions
about the nature of the international extradition process on the part of the inspection team.

        Third, we believe some of the figures in the report are incorrect and need to be reconciled
before the report is finalized. In addition, we suggest a few technical changes.

        Finally, we request that you redact the names of foreign countries cited in the specific
case examples in the report. Correspondence with foreign countries on extradition cases is
generally treated confidentially, and in instances where the foreign country appears to have been
unresponsive, we would not want to embarrass that country, particularly since the identity of the
country is not important to the issues raised in the report. Moreover, some of these may be open
cases and it would be prudent to delete the reference to the specific country involved so that
details of the specific cases are not inadvertently disclosed.

      I am available to meet at any time with representatives of the Office of the Inspector
General in order to further discuss the matters described in the annex to this letter.

Attachments

       Tab     A: OIA comments on proposed recommendations
       Tab     B: OIA comments on proposed findings
       Tab     C: Table of new and pending mutual assistance cases, 1990-2000




                                               2




                                                                                            43
                                                                                                    A
       OIA comments on proposed recommendations in OIG draft Report A-2000-21

        While the Office of International Affairs disagrees with a number of the draft reports
findings (see Tab B), OIA concurs in the general recommendations set out on page 34 of the
draft report. OIA is currently in the process of reviewing its policies and procedures with regard
to extradition requests and will focus on some of the very practical recommendations made by
the Office of the Inspector General in this report.

        As a first step in this review process, a complete file review has begun of the thousands
of pending cases and matters in OIA. This is an enormous undertaking, and will take a
considerable amount of time, particularly in light of the current strain on OIA resources. As
noted in our comments on the report's proposed findings, requesting and responding to requests
for the international extradition of fugitives constitute only a part of the overall responsibilities
and duties of the OIA. The office-wide file review will include not only extradition requests but
also incoming and outgoing mutual legal assistance requests, which now represent the majority
of OIA's files.

       In the file review process, OIA supervisors will work with the line attorneys in reviewing
each case and determining status and needed action. In addition to addressing the need for review
and action with respect to individual cases, the file review process will inform our effort to
develop and update policies and procedures with respect to extraditions and extradition case
management.

       Comments on specific recommendations follow:

Recommendation 1:

        OIA concurs. Office-wide review of all cases and matters has begun and includes the four
points cited in the recommendation. Supervisors will review each case file with the responsible
line attorney (this includes all files, not just extradition files). OIA has developed a new protocol
to guide attorneys in case closing procedures. This protocol will be implemented within the next
few weeks.

Recommendation 2:

        OIA concurs. Inasmuch as OIA has in the past been denied direct access to law
enforcement data bases, OIA is developing a protocol with INTERPOL whereby INTERPOL
will assist OIA in checking law enforcement indices as part of regular review and closing of
extradition cases. OIA will explore with FBI, USMS, and INS the possibility of entering
information regarding extradition requests which have not yet resulted in issuance of an arrest
warrant in law enforcement databases, although in the past this concept has been rejected
because of practical problems.

Recommendation 3:

       OIA concurs. In the course of the office-wide file review, OIA will review and develop
standards and procedures to address maintenance of case files.


                                                                                            44
Recommendation 4:

        OIA concurs. New computer hardware is being installed office- wide beginning in
February. This new equipment should facilitate attorney's use of the automated case tracking
system. Previous equipment did not have the speed or capacity to allow access by all line
attorneys without constant system failures. As soon as all computers are installed, MIS will begin
training of all OIA personnel in the use of the automated case tracking. As the office-wide file
review is completed, OIA will reconcile the results with the automated case tracking system. A
contract employee has been retained to assist the docketing unit in dealing with the increase of
cases to be closed.

Recommendation 5:

       OIA concurs. OIA has been working with the Office of Administration of the Criminal
Division to revise overall performance measures. OIA has asked the Office of Policy and
Legislation to assist it in assessing the extent to which the automated case tracking system can
produce information relevant to performance measures regarding case management.




                                                                                        45
                                                                                                 B
            OIA comments on proposed findings in OIG draft Report A-2000-21

PART I: The Report's findings incorrectly exclude increased workload as a potential factor
in the ever-growing backlog of pending extradition cases.

        Pages 5 through 10 of the report are devoted to an analysis of OIA's workload and
resources during the period 1990 to 2001. In several passages, the draft report -- referring to the
fact that staff levels and the number of new extradition cases remained essentially the same
during the period - either explicitly or implicitly asserts that therefore increased workload could
not have been a factor contributing to OIA's mounting backlog of pending extradition cases.1
Such a conclusion, with which OIA has repeatedly taken issue with IG staff, ignores the very
significant increase in OIA's caseload of mutual assistance requests between 1990 and 2001, as
well as the negotiation of more than 60 extradition and mutual assistance treaties during the same
period.

        The figures for mutual assistance requests are striking and were previously provided to
the OIG; they are attached once again. They show that from 1990 to 2000, the yearly number of
incoming mutual assistance requests increased nearly fourfold, from 439 to 1655. During the
same period, the number of outgoing requests more than doubled from 286 to 608. In part, this
increase in cases is due to the expansion in the number of MLATs (as noted in the report) from 4
to 38. The figures also reflect the same sort of pending case backlog seen with respect to
extradition cases.

        While we do not suggest that increased caseload excuses all case management problems
cited in the report, it is unfair and misleading not to acknowledge that there was a very
significant caseload increase during the period, in which the numbers of pending cases steadily
increased, with no corresponding increase in resources. The mutual assistance workload of the
office now approaches, if not surpasses, our extradition workload, and cannot simply be ignored.
Similarly, the substantial demands of treaty negotiations - including multilateral negotiations -
also cannot be ignored.

       The specific textual changes to address these problems would include:

1. Adding in the Executive Summary, at p. iii, following the second full paragraph (and
elsewhere in the body of the report, as appropriate) a paragraph along the following lines.

        Our assessment did not address OIA's caseload of mutual assistance requests (requests
for evidence), or its impact on the extradition case management deficiencies cited in the report.
However, it is noted that while OIA's extradition caseload has remained relatively stable over the
past decade, its mutual assistance caseload has more than tripled, and during this period there has
____________________
1
 E.g. "... OIA's pending workload did not grow as a result of new treaties." (p. 6);
"Although the number of new cases has not increased steadily since 1990, the number of pending
cases has increased rapidly." (p. 8).



                                                                                         46
not been any significant increase in staff. Also, during the 1990's OIA, working with the State
Deparment, negotiated more than sixty new treaties in the areas of extradition and mutual legal
assistance. While we did not undertake an analysis of the impact of OIA's increased workload of
treaty negotiations and mutual legal assistance cases on the steadily increasing numbers of
pending extradition requests, it cannot be excluded as factor which exacerbated the pending case
problem.

2. Revising the second paragraph on page 2 to read as follows, so as to give a more accurate
snapshot of OIA's workload and priorities:

        Although extraditions are OIA’s highest priority a high priority, OIA also handles a large
number of requests for evidence, both under mutual legal assistance treaties (MLATs)[insert fn
4] and through letters rogator7 or request, and provides information and advice on international
criminal matters to the Attorney General and other senior Department officials. It also negotiates
agreements on international criminal matters with the U.S. Department of State and other
government agencies. OIA's principal concentration is bilateral extradition treaties and mutual
legal assistance treaties (MLAT) MLATs, but it also negotiates executive and general
multilateral law enforcement agreements in a host of fora including the U.N., the OAS and the
Council of Europe. In addition … [text moved to beginning] …. officials.

3. With respect to the Table 2 on page 6, and the preceding narrative paragraph on page 5,
please see the suggested revisions under PART IV. In addition to those changes, for the purposes
of the current discussion, the final sentence in the narrative paragraph should be revised to read:
"Thus, OIA's pending extradition case workload did not grow as a result of new extradition
treaties." However, OIA's overall workload surely did increase as a result of new MLATs, and
the negotiation of 66 treaties in 10 years also was a significant part of OIA's workload.

4. Add at the end of background section (following page 9) a paragraph along the following
lines:

        "Although the number of new extradition cases per year generally remained in the range
of 700 to 900 through the period studied, the number of new mutual assistance cases (requests
for evidence) grew significantly. New incoming mutual assistance cases grew from 439 in 1990
to 1655 in 2000; new outgoing mutual assistance requests grew from 286 in 1990 to 608 in 2000.
Unfortunately, as illustrated in the Table below [please insert attached table of mutual assistance
case statistics], the problem of ever increasing numbers of pending cases also applies to OIA's
mutual assistance caseload."



PART II. Overly negative findings in some case studies

       As an initial matter, we request that the names of the foreign countries involved in the

                                                 2
case examples be redacted. Our communications with foreign governments regarding extradition
cases are generally confidential. Moreover, the underlying criminal cases in some of the


                                                                                         47
examples may still well be open and the report should not disclose details of pending cases.
Redacting the country names will make it unlikely that the specific cases can be identified.

        OIG selected six of the sixty cases reviewed to demonstrate OIA's case management
deficiencies. With respect to the six case examples, some "deficiencies" - including failure to
close the case in a timely fashion - are legitimate. However, in three cases the report draws
overly negative conclusions which are based on a misunderstanding of the extradition process or
on assumptions not supported by the record of the case.

1.     Page 18, example and discussion:

        This case study involves a defendant wanted for sexual abuse of minors. The report
reflects that between 1991 and 1997, OIA three times returned the case to the requesting country
[Country Name Redacted] because of deficiencies. Despite these efforts (and our review
indicates yet a fourth inquiry from OIA), the foreign country could not cure the problems with its
case. What is disturbing about report's characterization of this case is that it leaves the
impression that the "deficiencies" were minor or necessarily curable through further effort by
OIA. What is omitted, despite this having been brought repeatedly to the attention of OIG, is the
fact that the central flaw (diplomatically referred to as a "deficiency") was and remained
inadequate evidence to support the standard of probable cause required for an extradition. Lack
of evidence is not a problem that can be resolved, as the report suggests, by OIA "more actively
communicating," and it is not an unusual problem with foreign extradition requests. Also, the
fact that foreign country undertook twice to revise its documents, even if unsuccessfully so,
clearly indicated that it remained interested in the case. In sum, over a period of years, OIA and
the foreign country tried to cure the problems with the case; they did not succeed. Contrary to the
conclusions in the report, more "active" communication by OIA - even if merited as a general
aspect of case management - would not have cured the problems in the case, nor was it necessary
to ascertain the foreign country's interest.

        In this instance, the OIG inspection team seems to assume that the role of OIA is
primarily one of "processing" an incoming request for extradition, and forwarding the request to
the appropriate judicial district for court action. A great deal of time and a high degree of
discretion must be exercised by OIA at this stage of the process to ensure that a threshold
showing of probable cause can be demonstrated to the U.S. court. These are often complicated
cases about which there is not uniformity of opinion. However, if OIA determines that this
threshold is not met with the information provided by the requesting country, the case can not
and should not be forwarded to a U.S. court.

        Accordingly, we request that OIG revise the report to remove any suggestions that lack of
"active communication" by OIA was the cause of delay.

                                                3




                                                                                         48
2. Page 21, last paragraph, page 22 example, and page 23, first and second paragraphs:

        In the case sample discussed here, a provisional arrest warrant had been issued for a
fugitive but not placed on applicable U.S. lookout systems. Five months later the fugitive was
arrested on state charges, convicted and three years later deported, events about which OIA was
apparently unaware. The report cites several problems with this case.

        First, the provisional arrest warrant was not entered into NCIC. Had it been entered, it is
likely OIA would have learned through the Marshals Service of the fugitive's arrest and could
have notified the requesting country [Country Name Redacted] and preserved its opportunity to
extradite the fugitive, even if after his state sentence had been served. However this problem
should not be attributed to OIA. OIA does not have authority to enter warrants into NCIC; it is
the responsibility of the law enforcement agencies.

        Second, the report criticizes OIA for not "following up" with the USAO to determine
whether the fugitive had been arrested on the provisional arrest warrant. OIA need not "follow
up" in this manner. If the fugitive is arrested, the USAO of necessity informs OIA, in order to
obtain the formal documents supporting extradition from the requesting country, which if not
produced in the time required under the treaty will result in the release of the fugitive. The U.S.
Attorney's Office in this case is the Southern District of New York, which has successfully
handled many extradition requests and upon which OIA has every reason to rely in fulfilling
routine requirements regarding notice of the arrest of a fugitive.

        Third, the report criticizes OIA for not following up with the requesting country [Country
Name Redacted] to determine whether it had further leads on the location of the fugitive. The
law enforcement authorities of that country are well versed in international practice and will
communicate new fugitive location leads through law enforcement channels without prompting
from OIA. There is no indication any new leads were developed in the five months between the
issuance of the provisional arrest warrant in New York and the defendant's arrest in Florida on
State charges. Thereafter, it would have been difficult for the country to develop further leads
since the defendant was in fact incarcerated in the U.S. (which was, of course, a critical fact
which may never have been communicated to that country).

         This case study points out how two very practical steps - routine review of cases and an
ability for OIA to easily check law enforcement indices - would have, at a minimum, enabled
OIA to ascertain that the fugitive had been arrested on State charges and to then notify the
requesting country and preserve its opportunity to seek the fugitive's extradition. However, we
find highly objectionable the report's tacit suggestion that OIA's handling of the case made it
possible for defendant to go "on to commit a violent crime in this country." There is absolutely
no indication there was information available to U.S. or foreign law enforcement which would
have permitted the fugitive's arrest for extradition purposes prior to his commission of another
crime in United States. Conjecture on the part of OIG staff should not serve as the basis for such
a damning characterization of OIA.


                                                 4



                                                                                          49
         For these reasons, if the case study is to be retained at all, it would be more appropriately
placed alongside the discussion on pp. 25-26 (pertaining to factors in the extradition process that
limit OIA's ability to carry out its functions), and not in a section addressing deficiencies in OIA
procedures. Moreover, the key portion of the findings - recognizing an error committed by
another agency - should be in the text, not footnotes. Initially, we would request revision to the
text of the draft report in last paragraph on p. 21 along the following lines:

       "The following incoming extradition case demonstrates the need to fully utilize law
       enforcement information systems to improve the ability to locate fugitives sought by
       foreign countries and the need for OIA to to be able to incorporate checks of those
       systems in regular reviews of its pending cases. In this case, the USAO had an arrest
       warrant issued but the fugitive was not located and the warrant was not entered into
       NCIC. We found through an NCIC check that the fugitive thereafter commited a violent
       crime while in the United States, was arrested, sentenced and released from prison
       deported.

        In addition, we request the following revisions to the first and second paragraphs on p. 23
and to footnote 16:

               "Given current arrangements, OIA cannot2 match information pertaining to
       United States and foreign extradition requests with other law enforcement information
       systems, as it does not have access to relevant law enforcement systems, such as NCIC.
       [fn 16] Unless a Red Notice or extradition warrant [fn 17] is issued, U.S. law
       enforcement authorities that come in contact with the fugitive separate from extradition
       would not be aware of the extradition. Although we were told that OIA might query the
       INS regarding a fugitive's immigration status .... practice.

               "At the time of our review, there had been no activity on this case since 1993 and
       the case remains open at OIA. The USMS should have entered the provisional arrest
       warrant onto NCIC once it was determined that the fugitive was not at the location
       originally provided by the foreign country. Had this been done, the arrest of the fugitive
       in Florida likely would have come to the attention of the USMS and, in turn, OIA. OIA
       could then have followed up with the foreign country- to effect the fugitive's extradition,
       even if his surrender had to be delayed pending the service of his sentence on state
       charges. OIA did not follow up with the [Country Name Redacted] to determine whether
       it had another location for this fugitive who went on to commit a violent crime in this
       country.
        ……..

        Revision to footnote 16: One OIA attorney, formerly with INS, is permitted direct access
________________________
        2
          This is not a matter of"current procedures." OIA has sought and been denied direct
access to law enforcement databases.
                                                 5




                                                                                            50
       to some INS databases; otherwise, however, OIA does not have direct access to any all
       law enforcement systems such as NCIC.

3. Page 23, second and third paragraph, and example on page 24. This discussion sets forth the
finding that "... OIA's review ... did not detect deficiencies in the legal requirements of
extradition requests .... OIA country teams reviewed and sent cases forward that did not meet
legal requirements of the United States or foreign governments. For example, case files showed
that USAOs rejected cases sent to them because they lacked adequate probable cause. Foreign
countries also rejected cases because dual criminality was absent." This passage is misleading
and seems to reflect the unsupported premise that in cases of differing judgment, OIA attorneys
are always incorrect, and AUSAs and foreign courts are always correct.

        Prosecutors may differ in their judgment about whether probable cause is met in a
particular case; indeed, courts often have. Moreover, given the United States' obligations under
extradition treaties it is not unreasonable for the OIA to send forward a case which is arguably
sufficient under the treaty, with the possibility that the AUSA may disagree. This is exactly what
happened in the case example set forth on page 24, and it should not be cited as an OIA
"deficiency." Instances could be cited where an AUSA believed probable cause did not exist, but
where the case was handled by OIA and the court found probable cause. In addition, it must be
noted where a person has been provisionally arrested, the remedy for non-presentation of
documents is the release of the fugitive, so it is not improper to send forward documents which
may present weaknesses, provided OIA and the AUSA believe they are at least sufficient
grounds to make a credible argument for extradition in court.

        The conclusion that an adverse decision by a foreign court must be the result of poor
legal advice from OIA is particularly disturbing. Success in a foreign court is never assured.
Aside from the constant difficulties of extradition courts having to understand and interpret very
different laws and legal systems, OIA does not and should not shy away from pursuing difficult
cases which may present to foreign courts novel issues or new types of offenses. Moreover,
many adverse decisions by foreign courts are in our view simply wrong. It is unfounded and
unfair to suggest that anything less than a 100% success rate in foreign courts is due to failure by
OIA in its legal analysis and advocacy.

       In sum we ask that the above described analysis and case example either be deleted of
substantially revised. They do not support the harsh criticism levied against OIA in this section.

4. Page 26, second paragraph: The OIG report concedes that name matches yielded by NCIC
checks it ran to search for at-large international fugitives are not necessarily of the same persons
as are sought for extradition. If it cannot be confirmed that the persons arrested for other crimes
were the same as those for whom extradition was requested, we would ask that this paragraph be
deleted.

                                                 6




                                                                                          51
PART III: Findings regarding OIA's inability to produce files for OIG review

1. Page i, paragraph 4: The final three sentences of this paragraph indicate that OIA was
unable to find 12 files of the 70 selected by OIG for review. As we stated in our letters of
October 15 and October 31, our records indicate that OIG actually reviewed 60 rather than 58
files, meaning that OIG did not note its receipt of two files from OIA. Of the remaining 10 files
(a) OIG declined to review 3 files received by OIA from the records center after a cutoff date its
inspection team set; the record center's delay in producing these files should not be attributed to
OIA; (b) five other closed files were not produced by the records center; this may indicate a
problem at the records center and should not necessarily be attributed to OIA; (c) the remaining
two files were closed cases erroneously entered in the OIA case tracking system as being open;
they were subsequently located at the records center, but after the team's cut-off date.

       Accordingly, we request that the final three sentences of the fourth paragraph on page i,
and continuing onto page ii be revised as follows:

       " ... We selected a sample of 70 extradition case files from the total pending cases and
       cases closed during fiscal year 2000. Of the 70 cases, OIA's records indicated 39 were
       closed and 31 were open. Of the 70 cases, OIA did not produce 12 cases before we
       concluded our review 10 cases within the timeframe we requested. Some of those appear
       to be closed cases which either could not be located at the Records Center or which were
       produced by the Records Center after the cut-off date we provided OIA. In at least two
       cases, OIA could not produce the files requested in a timely fashion because it
       erroneously carried the cases as open when in fact they had been closed and sent to the
       Records Center."

2.      Page 15, first full paragraph: We suggest revisions in the first part of the paragraph
similar to those above:

       "We selected a sample of 70 extradition case files from the total pending cases as of
       November 2000 and cases closed during fiscal year 2000, Of the 70 cases, OIA records
       indicated that 39 were closed and 31 were open. Of the 70 cases, OIA did not produce 12
       cases, 9 closed and 3 open, before we concluded our review 10 cases within the
       timeframe we requested. Some of those appear to be closed cases which either could not
       be located at the records center or which were produced by the records center after the
       cut-off date we provided OIA. In at least two cases, OIA could not produce the files
       requested in a timely fashion because it erroneously carried the cases as open when in
       fact they had been closed and sent to the records center. [Note: With this addition,
       footnote 13 can be deleted.] Of the 58 60 cases reviewed, 30 32 were closed cases and
       28 were open cases. Of the 30 32 closed cases reviewed ... . "

3. Page ii, third full paragraph; page 16, first and second paragraphs; page 17 second
paragraph; page 23, third paragraph; page 27, last paragraph, page 33, first paragraph: Change
"58" to "60".
                                                 7




                                                                                          52
PART IV: Revision in Table 2 and accompanying discussion, regarding new treaties

         Table 2, on page 6, summarizes by year the new extradition and mutual assistance treaties
which entered into force between 1990 and the beginning of 2001. The only problem with the
table is that it indicates that there were 58 extradition treaties in force in 1990. We assume this
figure was arrived at by taking the total number of current treaties (91, and applicable to 110
countries) and subtracting the number of new treaties negotiated in the past decade (33), to come
up with a 1990 total of 58. While this approach works for MLATs, it does not work for
extradition treaties.

         By our calculations, the extradition treaty situation evolved over the past decade as
follows: In 1990 we had extradition treaty relationships with 105 countries, and as of February
2001, we had extradition relationships with 109 countries. (The report reflects an earlier OIA-
provided figure of 110, but for the purposes of the report the difference is not significant.) In the
years 1990 through February 2001, we count 32 new extradition treaty instruments entering into
force. (Again, the report cites an earlier OIA-provided figure of 33, but we don't find this
significant.) However, of those 32/33 new instruments, only 4 represent entirely new treaty
relationships, i.e., with Jordan, the Philippines, South Korea and Zimbabwe. The remaining
instruments are either new treaties which replace old treaty instruments, or are amendments to
existing treaties (called "protocols" or "supplemental" treaties). In light of this background, then,
it is inaccurate to state, as does the text following the Table, that "the number of extradition
treaties increased by 33."

       To better portray this rather complicated information regarding extradition treaties, we
would suggest simply deleting the first line of the table ("Prior to 1990") and the final line
("Grand Total") thus avoiding the problem of "total" numbers of extradition treaties. This
problem might then be resolved by revising the introductory paragraph on page 5 to read as
follows (for this purpose, we assume OIG wishes to keep the totals previously provided):

         "The numbers of new extradition treaties and MLATs have grown significantly over the
last ten years (see Table 2 on page 6). Since 1990, 32 new extradition treaty instruments have
entered into force. The majority are new treaties which updated or entirely replaced outmoded
extradition treaties, but four represent the establishment of extradition relations with new
countries. The United States currently has 91 extradition treaties with 110 countries. Before
1990, there were four MLATs .... "

PART V: Suggested technical corrections

p. i, 2nd paragraph, last line: in diplomatic practice, "communique" means a particular type of
statement (generally meant for the public or press), and not communications generally; thus we
suggest the reference be to "diplomatic communications."

p. i, 3rd paragraph, 8th line: suggest "believed to be in the United States" be revised to read
"believed at one time to be in the United States." As the report notes, cases are opened when

                                                  8



                                                                                           53
there is a location lead for a fugitive, but may remain open long thereafter, even though there is
no subsequent information that the fugitive was in the U.S.

p. ii, 1st paragraph, line 4: suggest "We found that OIA was most effective during the initial
review first phase of an extradition .... " The actions described constitute more than an initial
review. Extradition cases are based in most cases entirely on the documents submitted. Thus,
advice regarding and review of the documents is often the most critical phase of the case.

p.2, 2nd paragraph, 7'h line: suggest reference to Red Notice read: "issuing a Red Notice to
facilitate apprehension of a fugitive." Red Notices do not necessarily serve as a basis for
apprehension (it will depend on the country). However, it is certainly fair to say that as
international "wanted posters," Red Notices generally "facilitate" apprehension.

p. 3, 1st paragraph: please amend the reference to Team I's area of responsibility to read: "Ireland,
Africa, the U.K. and its dependencies, and the English-speaking Caribbean." Many Caribbean
nations have long been independent of the U.K. and may find it insulting to be referred to merely
as "former possessions." Moreover, it is primarily the fact that they are English-speaking that
places them in Team I's area.

p. 4, paragraph 2: the description of the fugitive unit is not correct. In the vast majority of cases,
when a fugitive is located abroad, the regional team is notified directly by foreign or U.S. law
enforcement agencies or through diplomatic or Interpol channels, and the fugitive unit
(comprised of a single attorney and now disbanded) is not involved. The second sentence should
therefore be deleted.

p. 5, footnote 7: the reference to an OIA attorney "stationed" in Switzerland is not entirely
accurate. A former OIA attorney, now living in Switzerland, is retained on an "as needed" basis
pursuant to a contractual arrangement with the Division. Also, the attorneys in France and the
U.K. are part of an "exchange" or "liaison magistrate" program initiated by Attorney General
Reno, as opposed to the full-fledged overseas positions filled by OIA attorneys at our Embassies
in Rome, Mexico City, and Brussels. We ask that clarification along these lines be included in
the footnote.

p. 23, footnote 16: in fact, OIA has access to no law enforcement databases, other than one
attorney who is permitted access to the INS database because she is a former INS employee; we
suggest a more accurate description would be: "One OIA attorney, formerly with the INS, has
access to INS databases; otherwise, OIA does not have direct access to any law enforcement
databases."

p. 26, paragraph 1, line 2: it is more accurate to say: "fugitives believed at one time to be in the
United States." While footnote 19 is helpful, without reference to the footnote, the statement is
misleading. As the report notes, many cases appear to remain open even when an initial lead on a
location in the United States has long grown stale.


                                                  9



                                                                                            54
                                                                                               C




                 OIA Case Trends, 1990 to 2000 (from Oracle Data) MUTUAL ASSISTANCE

                                     Year-to-Year running account


                       1990   1991   1992   1993   1994   1995   1996   1997   1998   1999     2000   Total
Incoming

           Open        439    588    712    826    998    990    1007   1088   1087   1207     1655   10597

           Closed      453    503    484    698    581    705    486    569    740    1201     902    7322

           Net         -14    85     228    128    417    285    521    519    347    6        753    3275

Outgoing

           Open        286    400    552    484    535    484    507    465    518    471      608    5310

           Closed      284    355    287    467    299    586    334    424    324    569      375    4304

           Net         2      45     265    17     236    -102   173    41     194    -98      233    1006

Total                  -12    130    493    145    653    183    694    560    541    -92      986    4281




                                                                                          55
    APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL’S
         ANALYSIS OF MANAGEMENT’S RESPONSE


        On December 10, 2001, the Office of the Inspector General (OIG) sent
copies of the draft report to the Criminal Division with a request for written
comments. The Criminal Division responded with three sets of comments, which
we have included in Appendix III. The first is a memorandum from the Criminal
Division’s Assistant Attorney General, who concurred with the recommendations
of the report but disagreed with some of the report’s findings. The second is the
Office of International Affairs’ (OIA) comments on the OIG’s recommendations.
The third is OIA’s specific comments on some of the findings and language of the
report. We first discuss the responses to each of our five recommendations, then
address the comments that the Criminal Division and OIA provided regarding the
findings and language of the report.

Recommendations

       Recommendation Number 1 – Resolved – Open. OIA is conducting an
office-wide review of all its cases and matters. According to OIA, this review is
addressing the four areas that we consider the minimum requirements needed in
extradition process policies and procedures. Although OIA has developed a new
protocol to guide attorneys in case closing, we believe OIA needs to develop
standard procedures that address, on an ongoing basis, the full range of
extradition case management policies and, at a minimum, respond to the areas
outlined in our recommendation. Please provide a copy of the new case closing
protocol and case management policies and procedures.

       Recommendation Number 2 – Resolved – Open. OIA responds to the
recommendation by planning to explore with the Federal Bureau of Investigation
(FBI), United States Marshals Service (USMS), and Immigration and
Naturalization Service (INS) the possibility of entering information about
extradition requests that have not resulted in issuance of arrest warrants in law
enforcement databases, and by developing a protocol with the U.S. National
Central Bureau (USNCB) of INTERPOL whereby USNCB would assist OIA in
checking law enforcement indices as part of OIA’s regular review and closing of
extradition cases. Please provide documentation of OIA’s consultation with the
FBI, USMS, and INS regarding entering extradition request information into law
enforcement databases, and a copy of the protocol developed with USNCB.

        Recommendation Number 3 – Resolved – Open. OIA’s plan to develop
standards and procedures to address maintenance of case files is responsive to
the recommendation. Please provide a copy of the standards and procedures.
        Recommendation Number 4 – Resolved – Open. OIA stated that it is
installing new computer hardware, which it expects will facilitate OIA attorneys’
use of the automated case tracking system. Training of all OIA personnel in the
system’s use will follow the installation. OIA will reconcile the automated tracking
system records with its office-wide file review. Please provide us with information

                                                                                 56
showing that the data in the new system is, and will remain, reliable and
complete, and the plan OIA intends to implement to ensure that the tracking
system is used as an integral part of case management.

       Recommendation Number 5 – Resolved – Open. OIA is working to
revise its performance measures and determining whether the automated case
tracking system will be the method by which to monitor OIA’s progress against
the performance measures. Please provide the revised performance measures
and method that OIA will use to monitor the office’s compliance with those
measures.

Criminal Division and OIA Comments on Report

        Although the Criminal Division agreed with all our recommendations, it did
not agree with several aspects of our findings. According to the Criminal
Division’s response, its three general disagreements were its belief that: (1) we
did not sufficiently consider the other duties and responsibilities of OIA, (2) some
of our case studies reflected overly negative conclusions about OIA’s extradition
activities, and (3) some of the figures in the report were incorrect. The Criminal
Division also provided us with amended information about the number of
extradition treaties and suggested technical changes to certain wording of the
report. Our analysis of the Criminal Division’s concerns and recommended
changes is provided below.

        OIA’s Other Duties and Responsibilities. The Criminal Division
requested that we add more information to the report about OIA’s increased
workload involving multilateral treaty negotiations and mutual legal assistance
requests. According to the Criminal Division, these have more than tripled over
the past decade. The Criminal Division further stated that these treaty
negotiations and assistance requests rival OIA’s responsibilities for extraditions
of fugitives and also contribute to problems in managing the extradition caseload.
The Criminal Division’s response added, “While resource considerations do not
excuse many of the case management deficiencies cited in the report, they
cannot be ignored as a factor exacerbating the office’s mounting backlog of
pending cases.”

        Although the draft report already described OIA’s mission, responsibilities,
structure, varied workloads, and staffing, we included some additional
information about OIA’s workload handling multilateral treaty negotiations and
mutual legal assistance requests. Our review did not evaluate the statistics
regarding OIA’s mutual legal assistance caseload and its affect on the pending
extradition caseload. However, in reaching our conclusions on OIA’s handling of
extradition cases, we did not ignore OIA’s other responsibilities or its increasing
demands in other areas. As the Criminal Division itself acknowledges, however,
its other duties cannot justify the significant deficiencies we found in its
management of extradition cases. OIA officials told us at the time of our review
that management of extradition cases was OIA’s highest priority. We believe
that problems in managing its extradition cases cannot be attributed to increases
in other areas; rather, the lack of basic management oversight in extradition

                                                                                  57
cases is the main fault.

        Moreover, during our review OIA provided no documented evidence that it
had analyzed its various workloads and work methods or had determined the
root causes of its case backlogs. If the increased caseload in other areas has
dramatically affected OIA’s ability to handle its extradition caseload in a timely
and appropriate manner – a proposition that has not been conclusively shown –
we believe that the Criminal Division should have sought to obtain, or allocate,
additional funds for those other critical responsibilities. In sum, while we noted in
the report OIA’s other responsibilities, and also include the Criminal Division’s
statistics and arguments about its other responsibilities, they cannot excuse the
significant problems we found in OIA’s handling of its extradition cases.

       Case Studies. As requested by OIA, we redacted names of foreign
countries from the case studies to protect the confidentiality of the countries.

       The Criminal Division also asserts that three extradition cases included in
the report draw overly negative conclusions about OIA that are based on a
misunderstanding of the extradition process or on assumptions not supported by
the case records.

       To supplement our reviews of the case files and Extradition Tracking
System, we interviewed attorneys assigned to cases that had little or no activity
over several years. The attorneys could not provide justification or extenuating
circumstances to account for the lack of activity. Likewise, we interviewed OIA
managers regarding cases and case management policies, but the managers
could only speculate as to why cases were handled in a specific manner. The
attorneys and managers told us they believed that initiating follow up on pending
cases was the responsibility of prosecutors and not the responsibility of OIA. If
requested by a prosecutor or law enforcement officer, OIA would then pursue the
status of a pending case.

       We disagreed with OIA’s narrow view of its responsibility for follow up on
extradition cases. The case studies on pages 19 and 23, which the Criminal
Division cited as overly negative, portray OIA’s limited level of involvement in the
cases. At the time of our review, OIA had not done anything on the cases in four
years and eight years, respectively. When events occurred that could potentially
change the status of the cases, OIA did not take action to facilitate the
extraditions. For example, in the first case, the USMS located the fugitive, yet
OIA did not notify the foreign country. In the second case, when the fugitive was
not found at the specified location, the OIA did not inform the foreign country or
coordinate with the U.S. Attorney’s office (USAO) and the USMS regarding the
status of the arrest. A follow-up call to the USAO or USMS may also have
ensured the fugitive’s warrant was entered into the National Crime Information
Center (NCIC) database.

       The Criminal Division stated, however, that follow up with prosecutors and
law enforcement officials was not OIA’s responsibility and that OIA’s lack of
follow up could not be linked to stymied extradition cases, unapprehended

                                                                                   58
fugitives, and crimes the fugitives commit while free. Our report does
acknowledge that factors such as the complexity of a case or diplomatic
considerations may cause a case to remain open for extended periods, or that
extraditions may not occur because fugitives elude capture, or foreign
governments cannot provide documents needed to meet the United States’ legal
standards. But we do not agree with OIA arguments about its limited role in
extradition matters. OIA has expertise and access to critical, time-sensitive
information about cases needed by prosecutors and law enforcement agencies.
Extradition cases involve alleged criminals on-the-run who may commit criminal
acts. Our checks of the NCIC database showed that fugitives do, in some cases,
remain in the United States and may commit other crimes. Similarly, fugitives
that flee from the United States to foreign countries may commit crimes in those
countries. Because of these potential serious consequences, we did not revise
the report to remove or lessen the conclusion about OIA’s need to perform
proactive follow up on extradition cases. We believe OIA must stay actively
involved in cases, coordinate with other parties to the extraditions (such as
foreign and U.S. prosecutors and the USMS), and proactively initiate prompt
case actions.

       We did, however, revise the report to include additional facts in the case
studies, such as information about the responsibilities of USAOs and the USMS
and OIA’s lack of access to law enforcement systems. We also added
information to emphasize OIA’s expertise and unique position to share
information and facilitate extraditions.

        The Criminal Division also expressed concern with the report’s statements
(on page 24) about deficiencies in OIA’s legal determinations in certain
extradition cases. The Criminal Division stated that these deficiencies could
reflect differences in judgment between OIA attorneys, U.S. prosecutors, and
foreign courts. However, our concern is that OIA does not have procedures in
place to ensure that each case receives an adequate review for legal sufficiency.
In addition, International and National Security Coordinators from two USAOs
that handle extradition cases




                                                                                59
       suggested that that knowledge of U.S. law displayed by OIA attorneys for
incoming cases was “wanting,” OIA did a poor job in screening incoming
extradition requests, and some extradition requests barely set forth probable
cause.

       In total, we reviewed 58 extradition case files and identified 34 cases with
case management problems. We could have used many of these 34 cases as
examples in our report of OIA’s lack of follow up or incompleteness of actions in
extradition cases. We believe that OIA plays a pivotal role in the extradition
process and should assume broader responsibility for case activities, such as
reviewing legal sufficiency, sharing information, and initiating follow up.

        Number of Files Reviewed. The Criminal Division asserted in its
response that we did not have accurate numbers for the number of files we
reviewed and the number of files OIA provided. In fact, contrary to Criminal
Division’s assertion that the “OIG actually reviewed 60 rather than 58 files,” we
did review 58 extradition cases. Our target sample size was 70 cases, but 12
cases were either never located or not received in time to review during our on-
site field work.

        In its response, OIA also stated that part of the problem in providing these
12 cases to the OIG was that the National Records Center could not find OIA
closed case files. OIA also added that the Records Center produced some
closed files to OIA late or the files were erroneously entered into OIA’s case
tracking system as being open, when in fact they were closed and at the Records
Center. We have included OIA’s assertions about the causes for the failure to
produce these 12 files in the report, but we also note that this provides another
illustration of problematic case management, particularly the inaccurate
information about the status of certain cases.

In addition, part of OIA’s disagreement with our numbers reflects a difference
                         with how we treated cases involving co-defendants.
                         Although our sample was 70 cases, we had requested
                         more than 70 case files and had received more than 58
                         files. The additional cases requested and received,
                         however, contained information involving co-defendants
                         related to other cases in the sample. We did not expand
                         our original sample of 70 cases to include these additional
                         cases.

       Extradition Treaties. After reviewing the draft report, the Criminal
Division provided us with revised treaty numbers and stated that treaty
information provided earlier by OIA was not accurate. Both the number of foreign
countries with extradition treaties and the number of extradition treaties since
1990 had been over-counted by one. The revised numbers should be 109 (not
110) and 32 (not 33), respectively. The Criminal Division further explained that
only 4 of the 32 extradition treaties established first-time treaty relations with new
foreign countries. The other treaties were updates to, or replacements for,
existing treaties.

                                                                                   60
       The Criminal Division’s revised treaty numbers are the third set of
numbers we have received in response to our inquiry. Based on this latest
information, we revised the report to delete the number of treaties prior to 1990
(the Criminal Division did not provide a corrected number) and added a footnote
about the four new treaties versus changes to existing treaties. We did not
revise the total number of extradition treaties entered into force since 1990 from
33 to 32.

      The Criminal Division also suggested a variety of technical corrections to
language in the report. Where appropriate we incorporated the changes.

       In sum, we believe – and the Criminal Division agrees – that the
recommendations we make could improve OIA’s management of its extradition
cases. We believe that OIA’s other responsibilities do not excuse the serious
deficiencies we found in the way OIA manages extradition cases.




                                                                                 61
